<html>
<title> - DECLARATION OF EDUCATION: TOWARD A CULTURE OF ACHIEVEMENT IN D.C. PUBLIC SCHOOLS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





   DECLARATION OF EDUCATION: TOWARD A CULTURE OF ACHIEVEMENT IN D.C. 
                             PUBLIC SCHOOLS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2005

                               __________

                           Serial No. 109-30

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-591                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 20, 2005.....................................     1
Statement of:
    Bobb, Robert C., Deputy Mayor/city administrator, government 
      of the District of Columbia; Kathleen Patterson, 
      chairperson, Committee on Education, Libraries, and 
      Recreation, Council of the District of Columbia; Clifford 
      B. Janey, superintendent, District of Columbia public 
      schools; Charles Ramsey, chief of police, Metropolitan 
      Police Department; and Brenda Donald Walker, director, 
      Child and Family Services Agency...........................    35
        Bobb, Robert C...........................................    35
        Janey, Clifford B........................................    53
        Patterson, Kathleen......................................    45
        Ramsey, Charles H........................................    67
        Walker, Brenda Donald....................................    75
    Kamras, Jason, national Teacher of the Year; Iris Toyer, 
      chair, Parents United for the District of Columbia Schools; 
      and Carolyn Dallas, executive director, Youth Court........   100
        Dallas, Carolyn..........................................   120
        Kamras, Jason............................................   100
        Toyer, Iris..............................................   111
Letters, statements, etc., submitted for the record by:
    Bobb, Robert C., Deputy Mayor/city administrator, government 
      of the District of Columbia, prepared statement of.........    37
    Boehner, Hon. John A., a Representative in Congress from the 
      State of Ohio, prepared statement of.......................     7
    Dallas, Carolyn, executive director, Youth Court, prepared 
      statement of...............................................   122
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia:.........................................
        Prepared statement of....................................     4
        Prepared statement of Ms. Cafritz........................    23
    Janey, Clifford B., superintendent, District of Columbia 
      public schools, prepared statement of......................    55
    Kamras, Jason, national Teacher of the Year, prepared 
      statement of...............................................   104
    Norton, Hon. Eleanor Holmes, a Representative in Congress 
      from the District of Columbia:.............................
        Prepared statement of....................................    20
        Prepared statement of George Parker, president, 
          Washington's Teachers Union............................    14
    Patterson, Kathleen, chairperson, Committee on Education, 
      Libraries, and Recreation, Council of the District of 
      Columbia, prepared statement of............................    47
    Ramsey, Charles, chief of police, Metropolitan Police 
      Department, prepared statement of..........................    69
    Toyer, Iris, chair, Parents United for the District of 
      Columbia Schools, prepared statement of....................   113
    Walker, Brenda Donald, director, Child and Family Services 
      Agency, prepared statement of..............................    77

 
   DECLARATION OF EDUCATION: TOWARD A CULTURE OF ACHIEVEMENT IN D.C. 
                             PUBLIC SCHOOLS

                              ----------                              


                          FRIDAY, MAY 20, 2005

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:27 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Davis of Virginia and Norton.
    Staff present: David Marin, deputy staff director/
communications director; Rob White, press secretary; Drew 
Crockett, deputy director of communications; Victoria Proctor, 
senior professional staff member; Shalley Kim, professional 
staff member; Teresa Austin, chief clerk; Sarah D'Orsie, deputy 
clerk; Corinne Zaccagnini, chief information officer; Rosalind 
Parker, minority council; Earley Green, minority chief clerk; 
and Jean Gosa, minority assistant clerk.
    Chairman Tom Davis. Thank you very much. The committee will 
come to order.
    Welcome to today's hearing on the District of Columbia's 
public school system.
    At a time when so many things are going right in the 
Nation's Capital, DCPS continues to be plagued with management 
problems, declining enrollment, crumbling facilities, 
escalating violence and substandard academic achievement.
    We are here this morning to discuss how the renaissance 
occurring elsewhere in the District can be mirrored in its 
classrooms. The fact is, the District's improved health cannot 
be sustained without a better public school system. The lack of 
performance improvement threatens future growth and stability. 
It leaves parents and families with unenviable or unattainable 
choices: move out, try to switch to charter schools with mixed 
records themselves, or win the lottery for a scholarship to a 
private school through the D.C. School Choice program, or 
succumb to the fact that their children are going to have to 
succeed in spite of, rather than because of, the educational 
climate around them.
    The good news is, there is a new sheriff in town. The 
arrival of Superintendent Clifford Janey offers an opportunity 
to begin anew. Dr. Janey has recently unveiled an ambitious 
plan, a declaration of education, aimed at raising academic 
achievement in every classroom, in every school. The committee 
did not invite him here today to lecture him or offer 
unsolicited pointers; we invited him to hear more about his 
vision and ask him how we can help him succeed.
    We all know what he is up against. According to the 
National Assessment of Education Progress, only 10 percent of 
fourth and eighth graders are proficient in reading. Only 7 
percent of fourth graders and 6 percent of eighth graders. In 
2003, the average D.C. Scholastic Achievement Test score was 
978, while the national average was 1026.
    Seven of the 27 schools serving eighth graders offer no 
foreign languages. Half of the schools have no vocational 
education teacher. One-third have no art teacher, and one-third 
have no music teacher. Even John Phillip Sousa's middle school 
has no band, and no music courses.
    DCPS also faces the challenges of instructing a high 
percentage of disadvantaged students: 62 percent are eligible 
for free/reduced lunch compared with the national average of 
39.7 percent. Students living in low-income families were six 
times more likely than their peers in higher-income families to 
drop out of high school, according to a study completed by the 
National Center for Educational Statistics. District officials 
have reported an alarming dropout rate of 40 percent.
    Almost half of all D.C. public schools have been classified 
as being in need of improvement under requirements of the No 
Child Left Behind Act. The classification is based on 2004 test 
scores in math and reading. The number of schools identified as 
in need of improvement increased from 15 in 2003 to 71 in 2004. 
Nearly 1,400 teachers are not properly credentialed. Some have 
not obtained a license in the subject they are teaching or have 
expired licenses.
    Another issue of concern is the high truancy rate. Last 
year, DCPS reported that it had 20,845 chronic truants and a 23 
percent overall truancy rate. The District's truancy rate far 
exceeds that of Prince George's County, 1.8 percent; Fairfax 
County, 0.6 percent; and Montgomery County, 0.9 percent.
    School principals have said that data largely reflects 
problems with computer systems that keep track of students, 
poor recordkeeping and personnel problems. We hope to hear more 
about this today from the various city agencies collaborating 
on this front.
    And then there are the challenges of crime, dilapidated 
buildings and ongoing labor negotiations.
    Not all the news is bad. The number of D.C. high school 
graduates continuing on to college increased 28 percent between 
1998 and 2003, due in large part to the D.C. TAG program, which 
levels the playing field for D.C. high school graduates by 
allowing them to attend State colleges and universities at in-
state rates. But we can do better.
    For students to take full advantage of this program, all 
students need to be prepared to attend a higher education 
institution. I grew up in a single-parent home, believing from 
an early age that I was going to graduate from high school and 
then go to college. That was the standard set for me and my 
siblings and most of my friends, but this is not the standard 
for too many students in DCPS. We are letting these children 
down.
    What Superintendent Janey's arrival offers is a chance for 
stability, for perseverance, for optimism. We can all agree 
that DCPS is a broken system. Now we need to agree on a 
strategy to fix the problem.
    We have with us today many of the players who will 
determine in large part whether this chapter succeeds or fails. 
I am eager to learn more about how reform efforts are 
proceeding and how students, teachers, administrators, parents 
and elected officials can support the plan. It is time to 
change the course.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T1591.001
    
    [GRAPHIC] [TIFF OMITTED] T1591.002
    
    Chairman Tom Davis. Mr. Boehner, the chairman of the 
Education and the Workforce Committee, was planning to attend 
this morning but was unable to make it, but his statement will 
be entered into the record.
    [The prepared statement of Hon. John A. Boehner follows:]

    [GRAPHIC] [TIFF OMITTED] T1591.003
    
    [GRAPHIC] [TIFF OMITTED] T1591.004
    
    [GRAPHIC] [TIFF OMITTED] T1591.005
    
    [GRAPHIC] [TIFF OMITTED] T1591.006
    
    [GRAPHIC] [TIFF OMITTED] T1591.007
    
    [GRAPHIC] [TIFF OMITTED] T1591.008
    
    Chairman Tom Davis. I would now recognize the distinguished 
ranking member, who shares our concerns, has worked I think 
diligently to improve the public schools in the District, Ms. 
Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Chairman, I welcome today's witnesses and say as well 
that I appreciate that Chairman Davis was willing to postpone 
this hearing until our new superintendent could get his 
bearings and come to an understanding of how he wanted to 
proceed to meet the many challenges facing the D.C. public 
schools, our children and their families.
    Superintendent Janey has been in office only since last 
August. He released a strategic plan earlier this month after 
broad collaboration within the city. In March, Superintendent 
Janey announced a standardized curriculum using the 
Massachusetts model, widely regarded at least by many as the 
best in the Nation. New standards-based tests will be 
administered in spring 2006.
    Because implementation of the recently announced strategic 
plan and the standardized curriculum have not begun, we must 
regard this hearing essentially as a status report, enabling 
Congress to understand direction, approach and goals. It is 
also important that today's witnesses include not only school 
officials; we recognize that many others in the city bear 
direct responsibility for the city's children. I note, with 
regret, that there is no representative from the Washington 
Teachers Union, which has recently been reorganized out of 
receivership and held elections. My office and I should have 
requested that a representative be added, particularly 
considering the heavy responsibility teachers will bear for 
implementation of the superintendent's plan and the many issues 
transferred from home and community to the classroom of urban 
schools today.
    I ask unanimous consent that George Parker, the president 
of the Washington's Teachers Union, who I understand is a 
strong supporter of the superintendent's new curriculum, be 
allowed to submit testimony for the record, Mr. Chairman.
    [The prepared statement of Mr. Parker follows:]

    [GRAPHIC] [TIFF OMITTED] T1591.009
    
    [GRAPHIC] [TIFF OMITTED] T1591.010
    
    [GRAPHIC] [TIFF OMITTED] T1591.011
    
    [GRAPHIC] [TIFF OMITTED] T1591.012
    
    [GRAPHIC] [TIFF OMITTED] T1591.013
    
    Chairman Tom Davis. Without objection.
    Ms. Norton. I regret that Chief Ramsey, Superintendent 
Janey and other officials could find safety issues in our 
schools worsened in a bill announced by two Texas senators and 
Virginia Senator George Allen is enacted at this time. 
Superintendent Janey and Chief Ramsey were prominent in our 
successful efforts to turn back this same bill last year at a 
time when 16 children had been killed by gunfire. We again need 
their help, the assistance of other public officials, and the 
extraordinary work of the broadbased coalition of citizens and 
businesses ranging from the Board of Trade to the parents of 
children killed by gunfire, whose exceptional efforts proved 
critical last year.
    The District alone must take responsibility for its schools 
and deserves to do so without interference from Congress and 
others who cannot be held accountable. However, the District 
also bears State costs not imposed on any other city school 
system.
    The physical condition of many of the city's schools have 
been a source of special concern to residents in recent years. 
The District now is moving to address these facilities with an 
understanding that dilapidated schools have palpable effects on 
children, including truancy and the denial of an environment 
conducive to learning.
    However, perhaps the most intractable and troubling cost 
facing the District is its total responsibility for special 
education without the State assistance that other cities depend 
upon to meet this growing need mandated by Congress. Members of 
Congress and their Governors regularly complain that special 
education costs have gotten so out of hand that States must 
have additional Federal help. It should be clear that the 
District's unique responsibility for special education has 
become increasingly untenable, with a rob-Peter-to-pay-Paul 
effect on the overall school system. These are two areas in 
which the Congress could be especially helpful to the city.
    I am a proud graduate of the public schools of this city. 
My late mother was a D.C. public school teacher. My sister, who 
is president of Albany State University, is a graduate of Minor 
Teacher's College. I have known our schools from both sides. We 
cannot do the job; they cannot do the job for our kids by 
themselves. These are our children; we all have an obligation 
to define our role and to do our part.
    I thank today's witnesses for their many efforts to improve 
the lives of our children and of our city. Thank you very much, 
Mr. Chairman.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T1591.014

[GRAPHIC] [TIFF OMITTED] T1591.015

    Chairman Tom Davis. Thank you very much, Ms. Norton.
    Now the Members will have 7 days to submit opening 
statements for the record. We're going to recognize our first 
panel. We have Mr. Robert C. Bobb, who is the Deputy Mayor/City 
Administrator for the government of the District of Columbia.
    We have the Honorable Kathleen Patterson, a chairperson on 
the Committee on Education, Libraries and Recreation from the 
D.C. Council, who has worked tirelessly for better public 
education in the city.
    Kathy, welcome.
    We have our new superintendent, Dr. Clifford Janey.
    And we very much appreciate you being here, Mr. Janey.
    Ms. Peggy Cooper Cafritz is ill this morning, but her 
statement will be put into the record.
    [The prepared statement of Ms. Cafritz follows:]

    [GRAPHIC] [TIFF OMITTED] T1591.016
    
    [GRAPHIC] [TIFF OMITTED] T1591.017
    
    [GRAPHIC] [TIFF OMITTED] T1591.018
    
    [GRAPHIC] [TIFF OMITTED] T1591.019
    
    [GRAPHIC] [TIFF OMITTED] T1591.020
    
    [GRAPHIC] [TIFF OMITTED] T1591.021
    
    [GRAPHIC] [TIFF OMITTED] T1591.022
    
    [GRAPHIC] [TIFF OMITTED] T1591.023
    
    [GRAPHIC] [TIFF OMITTED] T1591.024
    
    [GRAPHIC] [TIFF OMITTED] T1591.025
    
    [GRAPHIC] [TIFF OMITTED] T1591.026
    
    [GRAPHIC] [TIFF OMITTED] T1591.027
    
    Chairman Tom Davis. We have Charles Ramsey, the chief of 
police, and no stranger to this committee.
    We appreciate your being here today, and we appreciate the 
job you're doing.
    And Brenda Donald Walker, the director of Child and Family 
Services Agency.
    Thank you very much for being here.
    It is our policy to swear everybody in before they testify, 
so if you would just rise and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Go ahead, Mr. Bobb. Thank you for being 
with us.

STATEMENTS OF ROBERT C. BOBB, DEPUTY MAYOR/ CITY ADMINISTRATOR, 
  GOVERNMENT OF THE DISTRICT OF COLUMBIA; KATHLEEN PATTERSON, 
CHAIRPERSON, COMMITTEE ON EDUCATION, LIBRARIES, AND RECREATION, 
    COUNCIL OF THE DISTRICT OF COLUMBIA; CLIFFORD B. JANEY, 
 SUPERINTENDENT, DISTRICT OF COLUMBIA PUBLIC SCHOOLS; CHARLES 
 RAMSEY, CHIEF OF POLICE, METROPOLITAN POLICE DEPARTMENT; AND 
   BRENDA DONALD WALKER, DIRECTOR, CHILD AND FAMILY SERVICES 
                             AGENCY

                  STATEMENT OF ROBERT C. BOBB

    Mr. Bobb. Good morning, Chairman Davis, Ms. Norton, and 
members of the Government Reform Committee. I am Robert C. 
Bobb, city administrator for the District of Columbia, and I am 
pleased to testify on behalf of Mayor Anthony A. Williams' 
administration regarding our work with the District of Columbia 
public schools and our support for public education.
    I would like to thank you, Chairman Davis, on behalf of the 
Mayor for the leadership, support and encouragement you have 
provided our great city.
    As you know, education is a major priority for the mayor 
and his administration. In the District of Columbia, every 
child, regardless of the school they attend, can and should 
have access to a high-quality education in a healthy and safe 
environment.
    City leaders are working collectively to ensure that the 
DCPS students enter school ready to learn and leave with the 
skills necessary to be successful.
    The Williams administration has two key objectives to 
overcome the challenges facing DCPS. First, we provide the 
financial resources; and second, we provide the necessary non-
academic supports to successfully implement Superintendent Dr. 
Clifford Janey's strategic plan. Importantly, this plan 
reflects the education goals of the council, school board and 
citizens of the District of Columbia.
    The fiscal 2006 proposal budget includes a total of $1 
billion in local funds to educate an estimated 80,000 students 
within the District of Columbia public schools and public 
charter schools. This funding level represents an increase of 
$81.6 million, or 9 percent of the 2005 budget. The fiscal 2006 
budget is aligned with the superintendent's core budget request 
of $775 million and provides an additional $25 million to 
support strategic educational investments in academic and 
support services at both DCPS and charter schools and funds 11 
new charter schools.
    In addressing the non-academic needs of students, such as 
nutritional, physical and mental health and other social 
services vital for educational success, the Mayor plays a 
central role in aligning district agencies to support low-
performing schools, to provide wraparound services to the 
neediest students.
    The Williams' administration implemented various 
interagency collaborations, such as the Transformation Schools 
Initiative, school-based mental health services and school help 
program, and while we are very pleased with DCPS recent 
successes, we fully acknowledge that we must work 
collaboratively to overcome existing hurdles.
    In the past, DCPS process as a result of opportunities for 
leverage investments were unrealized as evidenced by the lack 
of funds budgeted for schools within various HOPE-6 projects. 
We are working with the new administration under Dr. Clifford 
Janey to jointly develop our capital budgets to align our 
priorities and planning. Through our city-wide capital planning 
committee, we will ensure the most strategic investment of our 
resources.
    Another hurdle is shifting enrollments between 2002 and 
2004, DCPS enrollment declined by nearly 6,000 students, while 
charter schools enrollment increased by 4,000 over the same 
period. A significant issue facing charter schools is the 
ability to acquire educational appropriate facilities. Faced 
with few options, charter schools use facilities allotment 
given to them by the city to lease spaces in the private 
sector. Making DCPS schools available to charter schools will 
help keep our public dollars invested in our public facilities 
by rightsizing DCPS facilities inventory through consolidation, 
disposition, co-location and partial demolition.
    This administration applauds Dr. Janey for presenting a 
budget that recognizes the need to spread resources more 
equitably across all schools by scaling back on a scope of 
projects, capital projects, where appropriate.
    We understand that, by December 2005, Dr. Janey will have 
developed his master educational plan which will update the 
master facilities plan, and the administration welcomes the 
opportunity to work jointly with and in support of the 
superintendent. We firmly believe that DCPS and the city share 
a common set of goals, and we are committed to working 
collaboratively to best serve the children and residents of the 
District of Columbia.
    [The prepared statement of Mr. Bobb follows:]

    [GRAPHIC] [TIFF OMITTED] T1591.028
    
    [GRAPHIC] [TIFF OMITTED] T1591.029
    
    [GRAPHIC] [TIFF OMITTED] T1591.030
    
    [GRAPHIC] [TIFF OMITTED] T1591.031
    
    [GRAPHIC] [TIFF OMITTED] T1591.032
    
    [GRAPHIC] [TIFF OMITTED] T1591.033
    
    [GRAPHIC] [TIFF OMITTED] T1591.034
    
    [GRAPHIC] [TIFF OMITTED] T1591.035
    
    Chairman Tom Davis. Thank you very much.
    Councilman Patterson.

                STATEMENT OF KATHLEEN PATTERSON

    Ms. Patterson. Thank you. Chairman Davis, Congresswoman 
Norton, thank you for the opportunity to testify.
    I am Councilmember Kathy Patterson, and since January, I 
have served as chair of the Council Committee on Education, 
Libraries and Recreation. I have been a member of the Council 
since 1995 and sought the position as a public school parent 
and advocate.
    The council's priorities for D.C. public schools include 
improving school facilities, seeking accountability for the 
expenditure of public funds by D.C. public schools and 
directing resources to the local schools. My priorities as 
chair of the committee include promoting stable leadership, 
providing stable and adequate funding and using oversight to 
promote steady progress on our school system's reform agenda 
that includes comprehensive new educational standards and 
strengthening professional development.
    Part of promoting stability includes advocating for a 
multi-year budget for the school system, a subject that I will 
come back to. Another policy goal is promoting and funding 
universal pre-kindergarten in the District of Columbia. Unlike 
most school systems, we already serve roughly half of the 
city's 4-year-olds in D.C. public schools. Given the extensive 
research on the importance of good early childhood education, 
there is no question we should be serving all 4-year-olds, and 
moving from there to provide all 3-year-olds with quality pre-K 
education.
    My committee's agenda often includes oversight of the 
public charter school legislation, and I anticipate one or more 
hearings in the fall. There are several specific issues to be 
addressed, including the funding process and issues of 
financial liability when a charter school closes. And I expect 
a range of other issues will surface during the course of 
testimony.
    During my tenure on the Council, D.C. public schools have 
had seven superintendents, seven in 11 years. There have also 
been four different and distinct institutions in that time 
standing in the shoes of the Board of Education. The Mayor and 
the Council have gone through two long and contentious debates 
over whether there will be a Board of Education in 2000 and 
again last year.
    It is not possible to serve children well when the 
leadership changes by the month. The best education reform 
plans in the world--and those of Superintendents Franklin Smith 
and Arlene Ackerman were sound--can't succeed without time, 
perseverance, buy-in from the political establishment and 
confidence on the part of parents and staff.
    What we have today in the public schools is a chance for 
that stability. That's one of the reasons I am more optimistic 
about the future of the public schools than at any other time 
during my tenure on the Council. We settled the issue with the 
school system's governance structure.
    The leadership of the city, Mayor Williams, Chairman Cropp 
and my predecessor's committee chair were invited by the Board 
to participate in a superintendent search last year, and they 
recruited and hired Dr. Janey, from whom you will hear this 
morning. This is not his first superintendency, and that is 
significant. This is only the second time in recent memory that 
D.C. public schools have been led by someone who was not 
engaged in on-the-job training. The Board itself is gaining new 
experience, with two new members elected last year who bring 
both energy and patience to the task.
    As Mr. Bobb noted, the Mayor added funding for the schools, 
as did the Council in the budget debates we just concluded at 
the Council. Even with those funding increases, school 
leadership has identified additional spending needs, including 
raises that might need negotiating and additional special 
education costs. And it is my hope that, as committee chair, 
the Education Committee can be of assistance to the 
superintendent and the Board as they revise their 2006 
operating budget to take into account both the additional 
funding and the additional spending needs.
    The Office of the Chief Financial Officer is reviewing 
special education spending, focusing on private school tuition 
payments. I'm hopeful that audit will provide options to better 
manage expenditures.
    And the superintendent initiated a comprehensive finance 
study by the Council of the Great City Schools to compliment 
the academic study released last year. I am hopeful that will 
also be helpful to the Board in reviewing the system's 
expenditures.
    The committee asked that we speak to facility needs, one of 
the highest priorities for members of the Council. The budget 
just approved includes $147 million in capital funding for 
2006, and the Council approved an additional $12.2 million to 
cover debt service for additional capital funding. That 
additional funding is designed as a special revenue fund to 
promote public/private partnerships, enhance in-house Special 
Ed capacity and facilitate co-location with charter schools. We 
are still working on the details of that legislative language.
    And that brings me to what I hope will be an agenda for 
this committee, securing additional Federal support to meet the 
facility needs of D.C. public schools. I hope to see the 
special revenue fund we are creating become a repository for 
Federal support, including funding based on Congresswoman 
Norton's Fair Federal Compensation Act.
    A parent-led coalition has, as you know, promoted a 100 
percent Federal funding to rebuild the District's schools, and 
I have attached a summary of the PROP 100 proposal to my 
testimony.
    The second agenda item I would urge the committee to 
consider, mentioned earlier: Dr. Janey and President Cafritz 
have asked us to consider a transitional multi-year budget for 
D.C. public schools. This would require a change to the 
charter. I have introduced a sense of the Council provision to 
this end. And while my colleagues have not had an opportunity 
to weigh in on the issue, I'm hopeful they will be supportive. 
I have scheduled a public hearing on June 23rd and hope to see 
a charter amendment acted on by the Congress by the end of this 
year, and I urge you to support and champion that proposal. 
Thank you very much.
    [The prepared statement of Ms. Patterson follows:]

    [GRAPHIC] [TIFF OMITTED] T1591.036
    
    [GRAPHIC] [TIFF OMITTED] T1591.037
    
    [GRAPHIC] [TIFF OMITTED] T1591.038
    
    [GRAPHIC] [TIFF OMITTED] T1591.039
    
    [GRAPHIC] [TIFF OMITTED] T1591.040
    
    [GRAPHIC] [TIFF OMITTED] T1591.041
    
    Chairman Tom Davis. Thank you very much.
    Dr. Janey, welcome. This is your first time before our 
committee, and I'm happy to have you here.

                 STATEMENT OF CLIFFORD B. JANEY

    Dr. Janey. Thank you very much, Mr. Davis, as chairman of 
the committee, and Ms. Norton, Congresswoman and a long time 
leader and supporter of Washington, DC, public schools and the 
District of Columbia.
    My name, as it has been mentioned, is Clifford Janey, and I 
serve as superintendent of schools and chief State school 
officer for the District of Columbia. I welcome this 
opportunity to appear before you to talk about what we are 
doing to not only reverse the current data points as outlined 
by Chairperson Davis but the perception as well of our schools. 
We are doing that with partners who are working with us in the 
interest of education reform and also strengthening the role of 
schools as anchors in our communities.
    We know what children need to succeed in school. They need 
good nutrition and physical education, consistent guidance, 
safety, and access to enriching educational and cultural 
experiences that will help them see and understand the global 
context of K-12 education.
    Children need to be taught successfully at every level in 
school before moving to the next grade level. The formula is 
basically the same for all children, regardless of race, class 
and ethnicity. Variation, however, in performance occurs most 
frequently as a result of differences in preparation of the 
student before entering school or differences in preparation of 
teachers and administrative staff while the student is in 
school.
    Numerous studies have confirmed the relationship between 
successful schools and vital communities. In her 2003 report 
for the Brookings Institute of Greater Washington, Alice Rivlin 
observed that improving schools was a key condition for 
attracting a diversity of families who would make their homes 
in the District of Columbia, which is in turn an essential 
element of our city's goal of increasing our population by 
100,000 residents by 2013.
    Excellent schools bring other benefits to our city, they 
attract and keep excellent teachers and principals who make 
their homes in the District. They train our young people to 
move successfully into college or the workplace and a well-
trained workforce who attracts businesses to locate in the 
city. They serve as anchors in the neighborhoods and raise 
property values. Building on the foundation and the momentum 
created by the D.C. Education Compact, I recently introduced 
the first step to making the substantive and sustainable 
changes that this system needs, a strategic plan for change 
that I call the Declaration of Education.
    There are three mutually supportive goals that frame this 
Declaration of Education. The first, as it should be, focuses 
on academics. That includes looking at our new standards and 
our new assessments which should be implemented next year. The 
second goal focuses on management systems, areas such as 
procurement, human resources and security facilities and 
technology. The third goal is in the area of communication and 
collaboration.
    The overall philosophy of the plan places a high value on 
creating a culture of collaboration, the aim of which is to 
create a school system that collaborates with all segments of 
the community, and assuming respective roles and owning their 
fair share of responsibility and accountability for student 
success.
    I agree with the recent Washington Post editorial that I 
alone cannot bring youth from home to school ready to learn, 
keep them engaged in class all day, and get them ready for 
college or a challenging career when they graduate from high 
school. In my own words, education can no longer be everybody's 
business and just my job.
    The DCEC is a significant partnership. That is, the D.C. 
Education Compact is a significant partnership created solely 
to support DCPS. This compact, which includes the Board of 
Education, the Mayor, the Council members, parents, teachers, 
students, principals, union leaders, foundation community and 
business leaders, is proving to be a tremendous reservoir of 
resources and support for DCPS as we work through complex 
problems and simultaneously reach important milestones that 
will restore universal public confidence. This compact is an 
unprecedented coalition under the major sponsorship of the 
Fannie Mae Foundation. And to date, more than 1,000 
stakeholders have participated in an intensively focused and 
nonpartisan process. The core beliefs that guide the DCEC can 
be summarized under three value propositions that underline the 
development and continuation of student success: a culture of 
achievement that accepts the belief that all children are 
capable of achieving a variety of success indicators 
notwithstanding their starting point; a culture of excellence 
in which we rely upon the highest academic standards and the 
best known business practices; and a culture of open engagement 
that values coordination, collaboration and cooperation through 
communication.
    With this testimony, I hope to jumpstart a conversation 
about how we can do business better, looking at those three 
goals and looking at how some of the partners who are here this 
morning will continue to be engaged with District of Columbia's 
public schools. Thank you.
    [The prepared statement of Dr. Janey follows:]

    [GRAPHIC] [TIFF OMITTED] T1591.042
    
    [GRAPHIC] [TIFF OMITTED] T1591.043
    
    [GRAPHIC] [TIFF OMITTED] T1591.044
    
    [GRAPHIC] [TIFF OMITTED] T1591.045
    
    [GRAPHIC] [TIFF OMITTED] T1591.046
    
    [GRAPHIC] [TIFF OMITTED] T1591.047
    
    [GRAPHIC] [TIFF OMITTED] T1591.048
    
    [GRAPHIC] [TIFF OMITTED] T1591.049
    
    [GRAPHIC] [TIFF OMITTED] T1591.050
    
    [GRAPHIC] [TIFF OMITTED] T1591.051
    
    [GRAPHIC] [TIFF OMITTED] T1591.052
    
    [GRAPHIC] [TIFF OMITTED] T1591.053
    
    Chairman Tom Davis. Thank you very much.
    Chief Ramsey, welcome.

                 STATEMENT OF CHARLES H. RAMSEY

    Chief Ramsey. Mr. Chairman, Congresswoman Norton, thank you 
for the opportunity to present this testimony on the issue of 
school safety, a topic of vital importance to the District of 
Columbia, to our young people and their families, indeed, to 
our entire city and its future.
    I have submitted a complete written statement to the 
committee, and I will summarize the key points here. Today's 
hearing comes at a critically important time in the District's 
ongoing efforts to enhance the safety of our public schools. 
Recent legislation transfers management responsibility for 
school safety from the D.C. public schools to the Metropolitan 
Police Department effective July 1st.
    There has been a misconception out there that this transfer 
of responsibility will mean that we will only have uniformed 
police officers protecting our schools. This is not the case. 
The District will continue to use contract security personnel, 
along with MPD school resource officers, to provide safety 
services to our schools.
    What is changing is that MPD will oversee management of the 
security contract and performance of the contract security 
personnel in the schools. The results, we believe, will be a 
better-trained, higher-quality workforce, greater coordination 
among private security, MPD personnel and school staff, and, 
ultimately, safer schools for our students, faculty, staff and 
parents.
    The schools' new security contract is a result of a 
cooperative effort among the MPD, DCPS and the D.C. Office of 
Contracting and Procurement. The proposed new contract has been 
presented to the D.C. Council for approval. What is noteworthy 
about the contract is that it sets standards for the selection 
and training of school security personnel. It establishes 
integrity and performance standards for personnel, including 
regular drug testing of employees. And it provides for strict 
and regular auditing of the contractor's performance in meeting 
the provisions of the contract. These are critically important 
reforms that will go a long way toward improving the quality of 
security services in our schools.
    Even before the legislation on school security was enacted, 
the MPD took a number of steps to enhance school safety using 
the resources at our disposal. Chief among these was the 
assignment of additional school resource officers, 99 officers 
and 14 supervisors assigned to our middle, junior and senior 
high schools based on a risk analysis conducted by the MPD. 
School resource officers and their sergeants not only provide a 
uniformed police presence inside the schools, they also 
facilitate critical coordination with the neighborhood patrol 
officers in the communities where schools are located. We know 
from the tragic shooting death of James Richardson inside 
Ballou Senior High School 15 months ago that crime problems in 
our neighborhoods often end up in our schools, and vice versa. 
The MPD is working to prevent this spillover effect by fully 
integrating school safety into the broader strategy of 
community policing that we call Policing for Prevention.
    SRO and neighborhood officers are in the same chain of 
command. They share information and resources about crime in 
the community, and they coordinate crime-fighting plans. And 
the principal and other school officials have access to the 
full range of police personnel to address crime and disorder 
issues affecting their schools. We're not compartmentalizing 
school safety, but rather integrating it into our broader 
community policing philosophy.
    The committee asked that I provide data on the nature and 
extent of crime in our schools. Based on our data, there are at 
least 522 serious crimes reported on D.C. public school 
property during calendar year 2004. That compares with an 
estimated 510 such crimes in 2003, an increase of about 2 
percent. The vast majority of these crimes, about 73 percent in 
2004, were property offenses, such as thefts, auto theft and 
theft from auto. So far this year, the number of crimes 
reported in D.C. public schools have declined 18 percent when 
compared to the same period in 2004. So we are encouraged that 
the numbers are moving in the right direction.
    In the community at large, juvenile involvement in crime, 
both as offenders and victims, remains a serious concern, 
although there may be some encouraging trends emerging here as 
well. During 2004, there were 24 juveniles murdered in D.C.; 
that's nearly double the number of juvenile homicide victims in 
2003 when there were 13. Of the 24, 5 were the victims of abuse 
and neglect. The remaining 19, all except one, were the victims 
of gun violence. So far this year, there have been 5 juvenile 
homicide victims, down from 13 such victims at this time last 
year, and we're hopeful that last year's spike in juvenile 
homicides was a 1-year aberration, not a statistical trend.
    During 2004, MPD officers arrested approximately 2,950 
juveniles for a variety of crimes from homicide, robbery and 
weapons violations, and various misdemeanor offenses. The 2004 
arrest total is approximately 15 percent higher than the 2003 
total and almost 22 percent higher than the 2002 total. So far 
this year, we've made just over 1,000 juvenile arrests.
    We've also substantially increased our enforcement of 
truancy and curfew laws as part of our strategy to reduce 
juvenile victimization and offending. Over the past 17 months, 
we've picked up more than 4,300 truants. Curfew violations 
increased from about 230 in 2003 to more than 1,200 in 2004.
    My written statement outlines several examples of programs 
that we're involved in to work with young people. These are not 
simply feel-good approaches but very concrete approaches to 
dealing with the issue of juvenile crime.
    Again, thank you for the opportunity to speak before the 
committee.
    [The prepared statement of Chief Ramsey follows:]

    [GRAPHIC] [TIFF OMITTED] T1591.054
    
    [GRAPHIC] [TIFF OMITTED] T1591.055
    
    [GRAPHIC] [TIFF OMITTED] T1591.056
    
    [GRAPHIC] [TIFF OMITTED] T1591.057
    
    [GRAPHIC] [TIFF OMITTED] T1591.058
    
    [GRAPHIC] [TIFF OMITTED] T1591.059
    
    Chairman Tom Davis. Thank you very much.
    Ms. Walker, thanks for being with us.

               STATEMENT OF BRENDA DONALD WALKER

    Ms. Walker. Thank you so much, Chairman Davis and 
Congressman Norton and staff.
    I am Brenda Donald Walker, director of the D.C. Child and 
Family Services Agency [CFSA]. CFSA is the District's child 
protective agency responsible for abuse and neglected children.
    The District of Columbia public schools are responsible for 
the education of all school-age children in our care. 
Currently, about 1,100 children and teens involved with CFSA 
attend public school in the District, and about 900 attend 
school out of the District, primarily in Maryland. DCPS is 
responsible for paying the tuition of those students. About 40 
percent of the students in our care are in special education, 
and approximately 750 children receive ongoing tutoring 
assistance.
    Coming from varying degrees of abuse and neglect, many of 
our children must overcome barriers to learning. For example, 
they may suffer prenatal exposure to drugs, separation from 
family and community, developmental delays, undiagnosed 
learning disabilities and past inconsistency in school 
attendance.
    In advocating for our children, we are collaborating with 
Dr. Clifford Janey and others at DCPS from our frontline social 
workers working directly with teachers to high-level 
collaboratively tackling specific issues. One issue I would 
like to highlight is our collaborative effort to combat chronic 
truancy. About a year ago, a city-wide truancy task force was 
formed to grapple with chronic truancy, which was defined as a 
child missing 10 or more days of school, unexcused absences, 
within a 3-month period. This is relevant to our efforts at 
CFSA because unexcused absences from school, especially with 
younger children, often indicate serious issues at home that 
may constitute risks of abuse or neglect.
    As a member of the task force, CFSA helped to devise a plan 
to address truancy at the elementary school. When parents 
impede children from attending school regularly, they can be 
found guilty of educational neglect, which in and of itself is 
often a symptom of other serious issues.
    We entered into a memorandum of understanding with DCPS to 
establish a standard protocol for elementary schools to follow 
in reporting chronic absences. And basically the protocol is 
that after a child under the age of 12 has 10 or more unexcused 
absences in 3 months and the school has initiated appropriate 
interventions, then the school will report the case to CFSA, 
and we will investigate. This collaborative effort has allowed 
CFSA to identify children at risk far earlier than in the past. 
In the first 4 months of 2004, before the MOU was in place, we 
substantiated 149 cases of educational neglect. After the MOUs, 
for the same period of time, we substantiated 236.
    In delivering services to the families, we have partnered 
with the community-based Healthy Families Thriving Communities 
Collaborative. And last summer, as a strategy of the task 
force, the CFSA and the collaboratives contacted nearly 200 
families whose children were chronically truant. As a result of 
this initiative, the truancy among this population the 
subsequent school year was cut in half.
    Looking forward, the District is now beginning to address 
truancy among middle school students. This population will 
prove far more challenging, and CFSA's role will diminish 
because the connection between abuse and neglect and truancy 
diminishes as students get older. Broader resources are needed 
to address this population, but we will continue to play a 
supportive role.
    I also want to discuss briefly the educational needs of 
foster children. For some foster children, education may 
temporarily take a backseat to the immediate needs of safety, 
overcoming trauma and adjusting to a foster home. National data 
suggests that children in foster care are at a 
disproportionately high risk of educational failure, as well 
as, I mentioned earlier, participation in special education. To 
support the educational needs of children in foster care, we 
have two educational specialists on staff, and we are 
finalizing an MOU to train foster parents with special 
education parents to become surrogate parents so they can 
better advocate for their foster children.
    Finally, as you know, CFSA receives Federal early 
intervention funds designed to avoid bringing children into 
care. Among many of the important services these funds support, 
we pay for transportation services to keep children in their 
home schools if they have to be temporarily removed from their 
homes.
    As everybody in this room knows, education is vital for all 
children, especially those in the child protection system, and 
we look forward to continuing our work with DCPS, other 
District agencies and the community to ensure consistent 
quality education for our children. Thank you.
    [The prepared statement of Ms. Walker follows:]

    [GRAPHIC] [TIFF OMITTED] T1591.060
    
    [GRAPHIC] [TIFF OMITTED] T1591.061
    
    [GRAPHIC] [TIFF OMITTED] T1591.062
    
    [GRAPHIC] [TIFF OMITTED] T1591.063
    
    Chairman Tom Davis. Well, thank you all very much for your 
testimony. I think the problem here is institutional more than 
just individuals. I think all of you have been working hard on 
the front line--some of you for years--trying to improve the 
school system.
    Let me start with a question, I'll start with you, Mr. 
Bobb, but, Ms. Patterson, Dr. Janey, may have a slant on it.
    Two issues that have been raised for us is, one, giving the 
public school system their own CFO gives them more flexibility. 
I think the District CFO Ghandi is wonderful. I think he has 
been a huge asset to the city. But for the city to have their 
own CFO, it gives them more rapid response time. It gives the 
superintendent, I think, some flexibility. And second, giving 
the school system a multi-year budget, maybe a 3-year versus a 
1-year, and I would like to get a reaction, if I could, Mr. 
Bobb, from you, and Mrs. Patterson and Dr. Janey.
    Mr. Bobb. Yes. Having served as a city manager in cities 
all across this country, I would always like to have my own CFO 
and my own budget people. And it doesn't take away at all from 
the good work that Dr. Gandhi is doing. And certainly, having 
had conversations with Dr. Janey and several superintendents 
and served through the superintendent search process, it seems 
like every superintendent we interviewed felt strongly that 
they should have their own CFO as well as their own budget 
office. And it is certainly something that the Mayor would 
consistently look at and would be in support of in that regard.
    Chairman Tom Davis. Ms. Patterson.
    Ms. Patterson. Thank you. From the standpoint of the 
Council, it is very useful to have an independent CFO because, 
for any piece of financial information that a Council member 
wants, we have not one but two places to go for it, directly to 
the operating agency and/or to the CFO, as necessary. So there 
is a certain practical utility.
    I think the school system could have its own CFO or 
continue to work with Dr. Ghandi's shop. I don't think that is 
as important as a close and collaborative working relationship. 
So, quite frankly, I could go either way on that issue.
    I am very supportive of the multi-year budget. I think that 
makes a lot of sense. I would like to be able to spend time 
discussing how money is spent instead of how many dollars there 
are.
    Chairman Tom Davis. Mr. Bobb, on the multi-year budget, do 
you have any thoughts on that?
    Mr. Bobb. Oh, yes, very definitely. I am in support of a 
multi-year budget. As a matter of fact, I had a brief 
conversation with our chairman of City Council in that regard.
    Chairman Tom Davis. Dr. Janey, let's get your reaction.
    Dr. Janey. Thank you, Mr. Davis.
    Chairman Tom Davis. I'll tell you, my experience has been, 
when you come into office and you're new, you ask for 
everything up front, because 6 months, 2 years later, it gets 
tough.
    Dr. Janey. We do it while the window is open.
    I am supportive of both subjects you raise. The first one, 
with respect to having the CFO report to the superintendent of 
schools, I think that's an issue that has come to a time where 
that needs to be done. And let me just cite a couple of 
reasons.
    First of all, all of the direct reports within an 
organization like a school district should have a standard of 
communication and a standard of accountability not only between 
that direct report and the superintendent, but a standard of 
relationship and accountability among and between the direct 
reports, so the chief financial officer, the chief operating 
officer, the chief accountability officer all need to work 
together and be held to a standard of accountability. It 
doesn't make much sense for a school district superintendent to 
be responsible for all of the affairs when the authority is not 
there.
    With respect to a multi-year budget, it was one of the 
questions I raised during my interview last year. And Chairman 
Cropp, at the time, I recall said she thought there would be 
some interest in exploring the implementation of that subject. 
It would provide our schools with an opportunity to plan over 
time. Programs wouldn't be 1 year; they could be at least 3 
years in nature, but would afford the school district's senior 
staff to spend less time preparing budgets and anticipating 
fights with others. And we could be monitoring. We could be 
assisting in the development of the implementation of those 
budgets instead of just doing the preparation.
    Chairman Tom Davis. Thank you, thank you very much.
    Chief Ramsey, let me talk to you a bit. We're going to have 
uniformed officers now doing the schools as opposed to 
contractors; is that what I have understood?
    Chief Ramsey. No, we have both, sir. We have 99 
Metropolitan police officers that are serving as school 
resource officers, another 14 sergeants and three lieutenants 
assigned as well. But we also have a contract security that is 
still a part of the security network for the schools.
    Chairman Tom Davis. And what was the limitation that 
Council put on that, on--didn't the Council put a limitation on 
going outside for your security contracts in the schools?
    Chief Ramsey. Well, a process is being followed now where a 
contract is about to be awarded, it is with the Council now for 
their review, so that in the fall we will have a contract in 
place. We currently are operating on an extension of the old 
contract for the contract security.
    Chairman Tom Davis. And how does that work, or does that 
prejudice the awarding of the new contract to talk about that 
publicly?
    Chief Ramsey. Well, I'm not part of OCP, so I would 
probably be very careful, but without getting into specifics, 
we have done what we need to do at this point in time, it's 
just a matter of it being reviewed. There is a roundtable 
scheduled for Monday, this coming Monday. It's a joint 
roundtable, and Ms. Patterson and Mr. Mendelson, who chairs 
judiciary, are having a roundtable to discuss various aspects 
of the contract that is before them.
    Chairman Tom Davis. Ms. Patterson, in the case of a capital 
program, the public school system is relying on authorizations 
of the Council and the barring authority of the District 
government. Does the Council hold oversight hearings on the 
implementation of the school's capital budget on a regular 
basis?
    Ms. Patterson. Well, we certainly do in the course of doing 
both our performance and budget hearings early in the year. In 
addition, I had an additional hearing on school facilities just 
right after the calendar year began because it is such a high 
priority. So yes, the answer is, we will be having regular 
hearings on what is done with those dollars.
    Chairman Tom Davis. In 2 years, the school board is going 
to go back to being entirely elective, is that my----
    Ms. Patterson. That was a mistake in my written statement; 
it's 4 years. For the 2008 elections, it will be all elected, 
one for each board, and the chairman and president elected 
city-wide.
    Chairman Tom Davis. You think we'll have a better 
experience than last time? You were one of the shining 
examples, but we had great difficulty, in my opinion, before in 
terms of a functioning school aboard.
    Ms. Patterson. I think the school board is getting stronger 
by the day. I see a real interest in oversight, an interest in 
accountability, an interest in working closely with the 
superintendent as well as with other officials in the city. So 
I'm optimistic there will be that change, but we know that 
change is coming, and that certainly gives an opportunity for 
any of us who do care to seek and recruit candidates to run in 
each of the eight wards.
    Chairman Tom Davis. Dr. Janey, how responsive has the 
Teachers Union been to your strategic plan?
    Dr. Janey. I think Mr. Parker has been demonstrating his 
commitment more and more to see a Teachers Union as being an 
enabler, as opposed to being resistant to change. He is one 
voice, however. He is just one voice, and he is new in his 
position. We have developed a working relationship; he has 
developed, along with other key staff members of my team, a 
very good working relationship. I think the jury is out in 
terms of the actual quality of the reception of the entire 
teaching force with respect to the strategic plan. I think 
that's partly a function of just not having, to date, the 
opportunity--as we plan to over the summer and the fall--to 
actually work with our teachers in developing, A, an 
understanding, B, some ownership, and, C, some skillful 
knowledge in terms of how it's going to enable them to become 
better teachers.
    Chairman Tom Davis. Now, a lot of the teachers, as I 
understand it, that are currently in the system were never 
certified or have their certification lapsed; is that correct?
    Dr. Janey. That is correct.
    Chairman Tom Davis. Is that a practical problem or is that 
a bureaucratic problem?
    Dr. Janey. It's more the former, it's a practical problem 
and an education one; it has implications for service as well.
    Chairman Tom Davis. What is our strategy on that?
    Dr. Janey. It is best understood in two parts; one, there 
are teachers who have not updated their certification, and we 
believe that there will be many who will be doing that as we 
have been seeing that change over the last several weeks. I 
think the more critical issue is in the area where we have no 
record at all of a teacher not having fulfilled a certification 
requirement and, therefore, no license. We are reviewing that 
right now. It will probably end up with an action on my part to 
dismiss a certain number of teachers who do not have evidence 
of license. In my review, there was a number of teachers, close 
to a couple hundred, who did not have any record of license 
from 1990 and earlier.
    Chairman Tom Davis. How did that happen? This is before any 
of your time. That is before your time Kathleen; wasn't it?
    Dr. Janey. As I'm plowing into the data and looking at the 
numbers against how many years without certification, I can't 
account for what was certainly not done, but it would be clear 
to me that these lapses, they just weren't accidental.
    Chairman Tom Davis. Do you think there is a chance in some 
cases for these teachers to get certification? In some cases, 
it's an opportunity maybe to get people out that maybe weren't 
performing and get new people in? Is it a combination of all 
these?
    Dr. Janey. It's probably a combination, that's fair, of all 
of the above. But our strategic objective here is more than 
just trying to be compliant with No Child Left Behind. We want 
to make sure our staff is credentialed, and beyond being 
credentialed, they're really prepared to deliver on the new 
standards that we have just adopted.
    Chairman Tom Davis. Getting new teachers in that are 
certified, that are qualified, is that a problem? Or is there a 
surplus of good teachers out there that we can attract in the 
marketplace?
    Dr. Janey. The challenge, Mr. Chairman, has to do more with 
attracting, recruiting and then retaining high-quality 
teachers. There is a sufficient amount of interest in coming to 
work in Washington, DC; that's been evidenced over the last 
several years. Our challenge has been beginning our recruitment 
process earlier so that we can be competitive with our 
neighboring districts. We made that commitment this year, and 
we delivered on it. We have a pool right now of some 400 
teachers who have expressed interest in working with us and 
becoming a part of the DCPS family, and we are having another 
interviewing session this coming Saturday, tomorrow.
    So I'm encouraged. There are initiatives that we are 
working with, special recruitment organizations that have 
partnered with us to make sure that we are getting the best 
talent and particularly the best talent spread over where our 
demands are, demands in special education as well as regular 
education.
    Chairman Tom Davis. The follow-up to that is getting good 
teachers is important. It can be tough, but you're sorting that 
out. Getting good principals is also very, very important.
    What is the pool like of what are we doing to find them? Do 
you think there will be many replacements? Can you give us any 
kind of preview of what your----
    Dr. Janey. Last year we appointed 24 new principals. I'm 
sure we will exceed that this year, this coming school year. I 
am not as encouraged with respect to the depth of the pool in 
the area of the principalship as I am with high-quality 
teachers.
    I think we will be more deeply challenged to find the kind 
of talent and the kind of matches that we'll need, particularly 
at the high school level. But we started early. Again, we 
started early, and our goal is to have, at least at the high 
school level, in the next several weeks, appointments, so that 
we'll take care of that particular issue and move throughout 
the organization in our junior high schools, our middle schools 
and our elementary schools.
    Chairman Tom Davis. Do you give any thought at going out 
and looking at retired principals? Because some of them retire 
at relatively young ages. They could still have several years 
ahead of them, could draw their retirement from another system 
and come in. Is that a possibility?
    Dr. Janey. It is. It is. And we would maintain a premium 
interest of making sure that there is quality evidenced in 
their background and the match is there.
    And we would look, again, Mr. Chairman, at whether or not a 
person who is currently retired in another district has the 
kind of energy to continue over a period of time so it leads 
into a succession plan. So it is not just taking Cliff Janey 
from Fairfax County, who has 2 more years of good playing time. 
It is looking at how it positions us for the next generation of 
players coming in to work with us.
    Chairman Tom Davis. And finally, Chief Ramsey, let me just 
ask you, how safe are the schools today?
    Chief Ramsey. I think that the schools are a lot safer than 
they were last year. The city is overall--last year we had an 
18 percent reduction in crime in the city in general, and when 
you look so far this year, we actually have an 18 percent drop 
in reported crimes in the schools.
    It needs a lot of work. A lot of the problems in our 
community spill over into the schools and vice versa, and we 
have to be constantly aware of that. So we have to have very 
solid communication between the schools and the officers that 
work on the streets so they know if there is a problem, it may 
spill over; and then vice versa, so that if we have a problem 
occur at night, that we can alert that school that you might 
have some fallout the next day from groups of kids that attend 
that school.
    Those are the kinds of challenges that we face. But we are 
100 percent committed to creating an environment where kids 
don't have to worry about their personal safety. They can focus 
on learning. And that is our one and only goal in trying to 
make the schools better.
    Chairman Tom Davis. Do you use undercover officers in the 
schools?
    Chief Ramsey. No. We have not done that.
    Chairman Tom Davis. We did that in Virginia. And, in fact, 
in one high school, we had an undercover officer, and he got 
elected president of the student council. It is a true story. 
He was a State police officer.
    OK, but you haven't seen to go in that direction at this 
point for intel gathering and that kind of thing?
    Chief Ramsey. Well, one of the things that I have found is 
very important as our officers, the school resource officers, 
who are especially trained do develop a lot of relationships 
with youngsters--and every school has far more good kids that 
want to learn than they have problem kids. They will come up to 
you and tell you when something is wrong.
    Chairman Tom Davis. It used to be a problem. Kids isolated. 
And if you can do that and still find a way to educate them, 
kids who want to learn can learn.
    Chief Ramsey. Yesterday was a good example where we got a--
it was a BB gun, but it looks like a real gun--from a student 
in front of Eastern High School yesterday, but the information 
came from another student that told us what was going on. So 
that is the kind of communication and relationships we need to 
build, the trust with the youngsters that go to school.
    Chairman Tom Davis. Dr. Janey.
    Dr. Janey. Yes. I would just like to add a comment or two 
to Chief Ramsey's response. And I really appreciate the work 
that they're doing with us. That has been my experience, both 
in Boston and in Rochester, working closely with social service 
agencies and with the respective law enforcement agencies. But 
I would like to point out a distinction that I think needs to 
be made here between crime and behavior.
    While the Chief has testified that we're safer with respect 
to crime, in some situations and in some schools we're still 
challenged by behavior. We have an expectation, to the greatest 
extent possible, that parents and family members are preparing 
their students for school. And it's our job to make a 
difference once they're in school. And that preparation not 
only includes, in terms of early childhood, some prereadiness 
skills in terms of reading and literacy, but as kids get older, 
it is also important to have schools and homes work together on 
the preparation of our students with respect to their social 
behavior.
    And that cannot be done just by teachers, support staff, 
administrators and social service collaborations. And we're 
still challenged in some situations where, while it is not a 
crime, behavior begins to be distracting to teaching and 
learning. And I'm pushing hard to make sure that kind of 
responsibility is shared as well.
    Chairman Tom Davis. Thank you.
    Let me just say I think Ms. Patterson, in her remark, 
talked about how they had 7 superintendents in 11 years, and 
without continuity it is tough even with really good people.
    Dr. Janey, you're the team captain. You are the new sheriff 
in town. This is your team. You're going to have turf fights 
and everything else occasionally, but I think everybody here 
will chip in and try to give you the tools you need, including 
the Congress, to get your job done.
    Everybody who sends their kid to public school thinks they 
are an expert on the public schools, but this situation has 
gone on way too long, without the appropriate corrective 
action. And part of it is that people get frustrated. They get 
impatient, like you say.
    I was impressed with your answer on retired principals and 
stuff, that you need to build the team for the longer haul. 
This isn't going to get resolved in a year or two. And I will 
tell you, the last thing you want is Congress trying to run a 
school system or a government or anything else.
    We work well with the D.C. government, where now they are 
running the largest surplus in the country, I think, of any 
city. Crime is down, capital is being attracted, the real 
estate market is going well.
    We want to take those same principles of where we've all 
worked together as a team, apply it to the school system, and 
you have some good people around you, and if we all work 
together, I think we have a shot at doing this.
    But this has been a tough nut to crack historically, and I 
just applaud you for the efforts you're making, and I 
appreciate the fact that you've chosen to come here, and we 
want to be as helpful as we can.
    So, Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I would like 
to quickly get through a set of questions. While I appreciate 
this report, entitled Juvenile Homicide in the District of 
Columbia, and you've given us some of the statistics in your 
testimony, we have counterintuitive trends in the District of 
Columbia, and perhaps in the two most important areas.
    Unemployment is going up and jobs are going up. Unless 
those two come together--I congratulate the District of 
Columbia on making jobs for the suburbs to, in fact, take. But 
the other counterintuitive statistic is in your report. Total 
homicides decreasing in 2004 by 20 percent, violent crime by 14 
percent; juvenile homicides, and we are talking about 17 or 
younger, up sharply, and most of that, according to your 
report, by gunfire, 24 children 17 or under compared to 13 in 
2003.
    I would just like to ask you and Dr. Janey to say for the 
record or respond to the rationale that was offered for the 
introduction of a bill to repeal D.C.'s gun laws by the 
Senators who appeared at a press conference yesterday. They 
said that everybody is entitled to have a gun in their homes to 
be used for self-defense.
    What is your view of the consequences of guns in the homes 
in the District of Columbia and their impact in the areas in 
which you work? And here we're particularly interested in the 
schools.
    Chief Ramsey. Ma'am, I'll start off, if that is OK.
    I'm totally opposed to any lessening of the gun laws as 
they currently exist in the District of Columbia. I think it 
comes at a very curious time, when you look at the history of 
the District, 10 years ago versus today, crime numbers are 
literally cut in half.
    When you look at the amount of guns that we take off the 
street now, when you look at the number of people, which is 
consistent that 80 percent of our homicide victims are victims 
of gun violence, and that has been consistent for years, and 
not just in the District of Columbia, but other cities have a 
similar statistic as well, it just doesn't make any sense to me 
that we would try to put more guns on the street.
    Most of the time, when you have an incident involving a gun 
in a household, it is an accident, a child finds a gun, what 
have you, as opposed to actually protecting or defending your 
property with the use of that firearm. Burglars that break into 
a home now have a weapon that they can steal in addition to 
VCRs and DVD players and that sort of thing that in turn are 
then used for criminal activity.
    Younger and younger people are carrying very sophisticated 
weapons. I mentioned earlier of the 24 juveniles that were 
killed last year, 5 were the result of abuse and neglect, but 
of the remaining 19, all but 1 died as a result of gunshot 
wounds.
    It is a horrible statistic, and I just don't think we need 
to add to that. So I'm personally opposed, and I stand ready to 
do whatever it takes and whatever you think is appropriate to 
stand alongside you to try to fight that back.
    Chairman Tom Davis. I don't think that it is any business 
of Congress to interfere with the city's gun laws. And I think 
Ms. Norton knows my position on that. But in addition to that 
18 juveniles were killed with guns last year?
    Chief Ramsey. Yes, sir.
    Chairman Tom Davis. That is higher than the total murder 
rate in Fairfax County, with over a million people, to give you 
a sense of proportion. And you are just talking about youths 
with guns.
    Chief Ramsey. Just juveniles.
    Ms. Norton. I appreciate the chairman didn't afford a 
hearing for the bill that was introduced last year. The 18 kids 
who died from gunfire last year died from gunfire that thugs 
somehow brought into the city. They didn't get those guns in 
their homes. Of course, I wonder what a--if a kid would feel 
that he had hit the jackpot if he found one in his home simply 
to take out into the street.
    Dr. Janey, you, of course, are new to the city. You and the 
Chief were very helpful to me last year in coming to the Hill 
when I asked you to so that you, who perhaps would be most 
credible on this issue, were able to express yourselves.
    Would you indicate what you think the effect of having a 
gun on the--what you think would be the effect of having a 
change in our laws so that people could keep guns in their 
homes?
    Dr. Janey. I don't believe there should be a change in the 
law. I say that for a couple of reasons; one, on a personal 
basis, growing up in Boston, and I recall like it was 
yesterday, my experience when I was a middle school principal, 
when there was this appeal from those who lived and worked on 
the streets of Boston. There was a saying, Chief, that you 
would rather be caught with it than without it. And the ``it'' 
was a gun.
    And I would oppose any change in the legislation, because I 
don't believe we should have universal access to guns. We 
should have universal access to knowledge and human resources 
to make sure our youth are making good decisions about their 
lives and for their lives over time. So I would stand with you 
once again.
    Ms. Norton. Thank you very much. Just to have your expert 
opinion on the record is important for us.
    Ms. Patterson, I remember and understand, perhaps, that 
during the recession that began in 2000, 2001, one of the first 
things to go was capital funding for the schools. This year, 
what is this, 2005, there seems to be a very good effort on the 
part of the schools to recharge the capital funding notion.
    I remain perplexed, though, because the city has 
increasingly reported since those first couple of tough years 
surpluses and compared itself and said how well it was doing. 
But here we are in 2005, when in a real sense, as I hear 
constituents, they're more likely to complain about the 
crumbling state of the schools than even about what they always 
complain about, which is how well the children were doing in 
the schools.
    So I didn't understand why the council did not move earlier 
here. And frankly, what my question is, is since the capital 
funding, a whole plan that a whole bunch of people have 
participated in, and since that was the first thing to go, 
almost the first thing to go, I'm not sure I have confidence 
that whatever is going to happen this time has any permanency.
    I would like you to respond to what was in the council's 
mind to wait until 2005, since it looked like it could have 
begun it earlier, and what do you think the council should do 
this time to maintain some presence of capital funding 
throughout so that you don't have schools like Wilson saying, 
hey, we want to be a charter school, then we would have at 
least greater control over ourselves.
    With the loss of students from the D.C. public schools, it 
looks like the tardiness in dealing with capital funding plays 
a role in that very transfer from one public school system to 
another.
    Ms. Patterson. Thank you, Congresswoman Norton.
    The city has, in fact, spent about $1 billion over the last 
decade on D.C. public schools facilities, and the question that 
I get most often from my colleagues is, ``Where have the 
dollars gone?'' Because a lot of the dollars have been spent 
ineffectively, and too many dollars were way over the market in 
terms of per-square-foot expenditures. That, keep in mind, was 
during the control board period of time when the Army Corps of 
Engineers basically ran the D.C. schools capital program. I 
think that is changing today----
    Ms. Norton. I am aware of the large--I don't really think 
it is sufficient to talk about the billion dollars, because I 
agree with that. And if you want to get into that, I agree with 
the way in which the school system has been spending money, 
period. My question is very specific.
    I think there must have been something more at work when 
capital funding was jettisoned for reasons that I perfectly 
understand, but despite all these outcries from the city, 
capital funding didn't come back into the budget in any kind of 
substantial way until this year.
    And the reason I ask that is by no means to engage in 
recriminations against the city, but since I saw the budget 
improving, I'm really asking for an answer that tells me 
whether or not capital funding is here to stay, whether there 
is any commitment, whether there is any way to keep it from 
taking a dive the next time, or taking the ultimate dive, 
disappearing, the next time there is a recession, which is sure 
to come at some point in any kind of economy--market economy.
    Ms. Patterson. I think the commitment is there on the part 
of myself, certainly, as the chair of the committee on the 
council, but I can't speak for the other 12 council members. I 
believe the commitment is there on the part of Mayor Williams 
to keep capital funding.
    Ms. Norton. Is there a way to have some kind of capital 
fund so that--I recognize things have to be funded. You have a 
fund, I believe, for which I compliment you, on housing for--
because of the difficulty of finding housing, affordable 
housing. And I suppose when the statistics are the 6,000 
youngsters--you know, 6,000 lost in D.C. public schools, 4,000 
in the increase in the charter schools, that at least is 
telling me something. And I'm not sure it is all about capital 
funding.
    But I'm looking for some notion that there would be some 
attention to capital funding that would say to parents who are 
thinking of leaving the city, who are thinking of leaving the 
public school system, that they at least have a fund so that 
every year they're going to try to put a little bit into that 
fund. That is really what I'm after.
    Ms. Patterson. This fund that we have created in this 
year's budget cycle I hope will become that fund, because it is 
a special fund with--again, it is only 12.2 for debt service 
this year that will spring $135 million in additional capital. 
But my hope is that can be managed sufficiently well that it 
can be funded--in the budget it is funded for the subsequent 
years. But it is certainly my hope that this is a sort of step 
by step. We add some money, it is well spent; we add more 
money, it is even spent better. It is that kind of a process.
    And I think it is aided incredibly by the work that the 
Office of the City Administrator is doing with technical 
assistance from Brookings, from 21st Century School Fund, of 
trying to improve the way the whole capital program for the 
whole city works with schools being a big part of that. And so 
the springboard for getting the dollars from the fund the 
council is creating is to do public-private partnerships and 
public-public partnerships. That is sort of the way in the door 
to access that special money.
    Ms. Norton. This method of my madness here, the attention 
of the Congress to charter schools has resulted in a revolving 
fund. And I'm able to go back and ask the Congress to put money 
in that revolving fund and to say it is for capital funding. I 
don't have any such way to get funding for the D.C. public 
school capital fund to say, look, this is what they're doing. 
If the District got a little help to leverage what is in their 
fund the way you leverage capital funding, perhaps something 
comparable could be done here with public schools as well.
    Let me ask you, Mr. Bobb, a question. I've been very 
gratified at the way you receive calls from me when somebody 
tries to come in to speak to me about a District matter. You 
are aware that I have an ironclad policy that if the matter 
involves the District of Columbia, you've got to go to the 
District of Columbia.
    And to the extent that people are able to get in to see me 
on a District issue, they have, in fact, inveighed to my staff 
and others that they are very, very desperate. And then I let 
them come in, I hear them out, and I tell them what I tell 
Members of Congress, that I'm not an expert in D.C. matters at 
any level. So I will hear you out, and then I will try to use 
what I hear you saying to refer you to the right--to the 
appropriate party, just as I would appreciate the council, when 
a matter involving the Congress comes up, I would appreciate 
more communication from the council before decisions are made 
on their own sometimes about matters that are solely within the 
jurisdiction of the Congress of the United States. That kind of 
reciprocity would be very much appreciated.
    For 15 years that is the way I've approached every single 
notion involving the District of Columbia. And it's helped me, 
by the way, if I may say so, to keep Members from doing things 
they would otherwise have done.
    I raise this question because you are aware of the people 
from mental health that came here, and you personally dealt 
with those people. I am beginning to receive systematic calls 
from people who tell me they have not been paid. Some of them 
are very troubling. D.C. General Hospital--sorry. What is the 
name of it? Greater Southeast, a hospital that we--the only 
hospital east of the river, has a demonstration. Some people, 
not the woman who heads the hospital, call in to my office.
    Whitman Walker in the paper just this week. Here are the 
sickest people in the District of Columbia. At least part of 
the problem, they say they haven't been paid by the District of 
Columbia.
    I sense a systemic problem just from calls to my office and 
from what I read in the paper. We know that a lot in the 
District of Columbia has been fixed. In fact, I've spent a lot 
of time in the Congress congratulating the council and the 
Mayor for all you have done in the city. But I can't understand 
whether or not this one problem, part of the reason D.C. 
General was brought down in the first place, was that people 
couldn't keep track of how much money was going where.
    What is the problem with the financial system here? What is 
the problem with the financial system in the D.C. public 
schools that meant that for 2 years running apparently nobody 
caught the fact that the raises for teachers, which have been 
there for as long as there's been a school system, were somehow 
not figured into what the school budget had to be? Perhaps the 
chairman's question on CFO, I don't know, may come from the 
fact that there is a CFO from the CFO's office sitting right in 
the school system, and yet for not 1 year, but 2 years, a very 
obvious cost, was not reflected in the school system budget. 
Could you talk about that? But then talk about whether or not 
we still have a systemic financial system in the District of 
Columbia.
    Mr. Bobb. Yes, I can. We have worked very hard to correct 
some of the billing issues, particularly in the Department of 
Mental Health, with the number of agencies that have come to 
your office and you referred them to me. And I've actually gone 
out to a number of those agencies to see their problems 
firsthand.
    Ms. Norton. You certainly have.
    Mr. Bobb. And so those issues----
    Ms. Norton. And that is a poor way to use your time. But 
you have been wonderfully responsive on this score.
    Mr. Bobb. Thank you very much. But Deputy Mayor Albertson 
and I were working through the issues on the mental health side 
in terms of billings in some of the mental health community-
based organizations based on the fact that we have a new--I 
don't want to just blame the problem on the fact that we have a 
new financial system in place, but we have to fix those 
problems, and they're being addressed. With respect to the 
issues----
    Ms. Norton. There is a new financial system for the entire 
government?
    Mr. Bobb. Mental health. Just in the mental health system, 
yes. But with respect to the issues of the billings for some of 
the HIV, Whitman Walker and others, we have some procedural 
problems and issues that were put in place during the control 
board era we were in. When an agency submits a bill, we, in 
fact, have to do an audit on the front end, and that has been 
some delays.
    Ms. Norton. For each and every bill?
    Mr. Bobb. Each and every bill. And those policies, Deputy 
Mayor Albertson and I are working with the Department of Public 
Health, and we are going to be changing some of those 
procedural policies in terms of how agencies are paid.
    And then finally, in the case of Whitman Walker, for 
example, they--as a result of their self-reporting, they 
actually reported that they owe the District $2 million. And so 
we're working through some of those issues.
    And we will have a report----
    Ms. Norton. So they found money they owed before you all 
found. What was the difficulty at Whitman Walker? Goodness, I'm 
glad they are so honest.
    Mr. Bobb. They actually owe us. But the fact of the matter 
is you would think that, however, since we are auditing these 
bills each time we get them, that those problems would be 
addressed early on. And so Deputy Mayor Albertson, Dr. Payne, 
the new director of public health, are working through those 
issues, and we will have a report to the Mayor next week.
    Ms. Norton. You don't think that is a citywide problem 
here, and that it is just agency by agency, and maybe I'm just 
getting the ones that are raising the problem.
    Mr. Bobb. If you go back historically, it has been a huge 
problem in the District, but over the years the District has 
worked really hard to address the issues of nonpayment and slow 
payment of its vendors. And I think, you know, we have made 
huge progress in that regard.
    Now, with respect to the other issue and the budget and 
teachers' salaries, I would have to defer that question to Dr. 
Janey.
    Ms. Norton. What about the 2 years without perhaps Dr. 
Janey, perhaps Ms. Patterson, by the raises somehow not being 
factored in even though they take place on an annual basis?
    Whichever of you can----
    Ms. Patterson. What became an issue this year were step 
increases. That is one issue, step increases already in the 
contract that weren't really taken account of. But by law the 
school system right now is funded by the per-pupil funding 
formula. And the answer that I have gotten from the financial 
people is we provide all the data to provide all the funding 
formula information, and therefore, we don't do what-are-your-
underlying-cost assessment, because the funding formula 
generates the dollars that go into the Mayor's budget.
    The step increase issue, as I understand it, arose because 
the board of education approved a 3 percent increase in funds 
going to local schools which--where they cover local schools' 
salaries, but the average teachers' salaries were rising at 4.7 
percent. And obviously, you can't cover 4.7 percent with 3 
percent, so the schools were looking at reducing staff. And 
that is the issue that we're working on.
    Ms. Norton. Did anybody know that or catch that? The reason 
I ask is because it is not a new cost. It is the one cost you 
would expect would be step increases to be factored in.
    Ms. Patterson. Right. And when we went back and looked at 
the----
    Ms. Norton. And the reason I ask it again is because, you 
know, over here, even when we do something right, like we have 
a big thing, we have a debriefing to say how could we have done 
it better?
    Now, if we do something where there has been a problem, the 
only way to make sure that the problem is gone is not to say, 
you know, they did it wrong. Why did they do it wrong? What 
would it take to make sure that it does not take place again? 
Would the CFO, the school system CFO, have to be given more 
responsibility? You say they tell you what--they don't look at 
the final, the final numbers, they just tell you, all of these 
numbers must be included? Well, who looks at the final ones? 
Who checks them? I'm trying to find out whether or not the 
problem is cured.
    Ms. Patterson. I think Dr. Janey can probably speak to 
this, but as I understand it, the cure on this particular issue 
is a reevaluation of the weighted student formula, the dollars 
that go to local schools. And Dr. Janey has his financial 
people looking at that issue.
    Dr. Janey. Thank you. I want to first commend Council 
Member Patterson for her being a very quick study on this 
issue.
    When I brought it to the council, I believe, the first week 
in April, and brought it before the board of education as well, 
I found--and it was my observation--that there wasn't 
sufficient attention being paid to the fine detail or to the 
fine print. And their pupil funding formula in how it accounts 
for cost of living changes was not staying up with the step 
increases. And so, for example, teachers on average, were 
entitled to a step increase between 4 and 9 percent, and the 
formula was only at 3 percent. So you've got a shortage there.
    So again, part of the solution is a reevaluation of the 
formula, but part of the solution is administrative, that you 
have to do the fine detail work and be transparent in your work 
in presenting that information.
    Ms. Norton. Who would do that, what office?
    Dr. Janey. The CFO's office. Both CFOs' offices.
    Ms. Norton. So you're working with the CFOs so that they 
understand?
    Dr. Janey. Dr. Gandhi and the school district CFO would 
have responsibility.
    Ms. Norton. A third year in a row would be very 
unfortunate. And I understand there are difficulties in--the 
difficulties presented, but it is only numbers, and that is the 
one thing I think we can do.
    Could I ask about foster children? I am working here--I 
know the chairman will help me on a misstep. At the time of the 
Revitalization Act critical to bringing the District out of 
insolvency, the formula was apparently changed--the formula was 
changed from 50/50, some ridiculous number that would have 
still kept us bankrupt, to 70/30. But the health care of foster 
children is not in the same budget, Medicaid budget, as the 
formula, and therefore, apparently, that percentage was never 
changed.
    This is really for Ms. Walker. Is it your understanding 
that still the greater part of health care for foster children 
is being paid by the District of Columbia different from the 
way in which children in Medicaid are, in fact----
    Ms. Walker. Thank you for bringing that up, Congresswoman 
Norton. If I could explain a little bit, it's very complicated.
    The Revitalization Act that you mentioned did adjust the 
Medicaid reimbursement rate, the local share, that was 50/50, 
and the adjustment was made to 70/30, 70 Federal, 30 percent 
local. The corresponding fix for title 4(e), which is not for 
health care--Medicaid primarily pays for health care of 
children in foster care; 4(e) under Social Security Act pays 
for most of our case management services, our direct services 
to children. Every other State has the same match rate for 4(e) 
as Medicaid.
    We did not get the fix. It is in a different title. So that 
adjustment was not made. So 4(e) match rate is still at 50/50. 
And we have been having conversations, and we really appreciate 
your staff's participation over the last couple of years, with 
Members of both sides to talk about having--adjusting that rate 
so that it's equitable with all other States, and we believe 
that there is support to do that. We're looking for the 
legislative vehicle and the complicated processes that we have 
to go through to get that match rate increased. But that would 
make it equitable. Every other State has exactly the same match 
rate, and we are still burdened with having a much reduced rate 
that affects the Federal dollars that go on behalf of foster 
children.
    Ms. Norton. That is clearly a mistake, you know. It is not 
like people asking for an increase. I'm concerned, the Mayor is 
sufficiently concerned, about the number of children who must 
be taken out of their home. And I congratulate him for the 
notion that grandparents should have a special stipend, 
grandparents who are not adopting, in order to encourage 
grandparents, as opposed to nonrelatives in foster homes.
    A lot of us would like to see that money go into that very 
good initiative on the part of the District of Columbia, so we 
will continue to work on that. I just want to make sure how 
that was happening.
    Ms. Walker. Thank you.
    Ms. Norton. Let me ask about the other end of the scale. We 
always talk about--with good reason--about the children who are 
not doing as well as they should. I wonder about children--I 
would like to ask about advanced placement and other such 
programs.
    When I was in the District public schools, they were 
ruthlessly tracked. That is something that I am not 
recommending. But they were tracked so that you knew exactly 
who was in the first track, who was in the second track, third 
track, all the way down to the bottom track.
    Now, the interesting thing is huge numbers of children 
nevertheless went to college, because it was a different kind 
of city, with aspirational parents, even when they didn't have 
college educations themselves. But the tracks pretty much 
guaranteed that some students would be focused on--maybe in the 
way advanced placement does today.
    What high schools have advanced placement in the District 
of Columbia? What does it take to get advanced placement, 
particularly if you live in a neighborhood and don't go to one 
of the special high schools? What are the special high schools? 
Banneker, School Without Walls. Are there any others? Duke 
Ellington. Is all of it piled up in those schools?
    Dr. Janey. Congresswoman Norton, all of our high schools do 
have advanced placement courses. In this declaration of 
independence, we are expanding that opportunity so there will 
be a minimal threshold of existing courses at each of our high 
schools at least forward.
    On the second question, what does it take? It fundamentally 
takes a real good teacher who has been trained to teach 
advanced placement to make that----
    Ms. Norton. Is it possible that students in one school, for 
example--I don't expect any time soon to have advanced 
placement courses equally everywhere in the District of 
Columbia. Perhaps where there is no call, less call for 
advanced placement, would it be possible for students to travel 
to a school to take advanced placement in something that was 
not particularly offered in that child's own high school, for 
example?
    Dr. Janey. Yes. Yes. It makes a lot of sense, because some 
schools have had lots of experience with advanced placement, 
will have a lot of exams as well for the courses. And when you 
have a school that really specializes in that, as Banneker is, 
and it was listed in Newsweek's top 100 high schools again a 
couple of weeks ago--it is not reasonable to think that every 
school is going to have an AP course in ancient history or 
African art or--I'm making that up. But it is within some 
context.
    So while we're having a floor that creates universal access 
for courses, and we are increasing the number of students 
taking courses, I think the real key here is who takes the 
exams and who earns at least a three or more on the 
examinations. And that is where our effort is going to be 
concentrated, making sure that there is a relationship between 
the number of students who take the course, and making sure 
they're taking the exam, and the preparation is, therefore, 
success in the exam. That is how you really move the needle.
    Ms. Norton. And, of course, building excellence, yes, in 
the teachers. And I would just encourage you to look for 
innovative ways to make these courses available across the 
system. And it looks like that is what you're doing.
    I'm going to quickly try to get through these. I was 
troubled by what you said about the principal pool, because the 
prevailing wisdom is that you've got to have a good principal 
in order for everything else to fall into line. And I notice 
that, while we have a teacher of the year who is going to be 
testifying on the next panel, and you are drawing, of course, 
teachers from this wonderful program, Teach for America, as 
much as I would like to see teachers promoted from within to be 
principals, it does look like there is a difficulty--if much 
depends upon their success, and if the pool isn't what you 
would like it to be, is there any way to increase your pool.
    You testified that you increased entry level pay for new 
teachers. Is pay a problem? What is the reason that--is there a 
problem that confined you to the existing pool? Is there a 
larger pool that is available to you as well? Is there training 
needed for principals, or teachers who strive to be principals? 
Is such training offered?
    Dr. Janey. Yes, there is training that is provided. More 
training and development, I believe, is needed.
    I think it is an open question as to whether our principals 
are competitive with our regional counterparts. That is not the 
case with our teachers. Our teachers are now competitive in 
salary with our regional counterparts at school districts.
    Ms. Norton. But not the principals' salaries?
    Dr. Janey. No. The principals, I believe, are not as 
competitive as our teachers are. And I think we're going to 
have to be really in a situation to double, triple our efforts 
to get the kind of depth in pool and quality within that depth 
in pool for principal selection over the next several months.
    This is not a new issue, and it is not unique to the 
District of Columbia. It is a national challenge that school 
districts, whether they're urban, suburban, or rural, face. And 
it is going to require a major effort that is coordinated 
between pre-K to 12, higher ed, and the corporate community to 
see this over a period of time, because we can't resolve it 
with a 1-year double dosage of energy, and then next year we're 
faced with these attrition rates that continue. So we need a 
multiyear plan on this issue.
    Ms. Norton. You know, some of us who are simple-minded and 
don't know anything about education come up with solutions like 
we ought to be paying teachers more who go into the most 
troubled schools. We ought to be paying principals more who are 
going into the most troubled schools. But what do we know?
    Let me ask you about special education. That didn't come up 
much, but that is the wail one hears from the District of 
Columbia so often. Have we finally gotten those costs, 
including the cost of transportation, under control?
    Either of you may answer.
    Dr. Janey. I'll take the lead here.
    One of the ways--first of all, let me just give you some 
context. Overall, our percentage of students who have a 
disability, the overall percentage, 18, 19 percent, as high as 
it is, almost one-fifth of the children enrolled in the 
District of Columbia, DCPS, are students with a disability. 
That is not out of line with other urban districts, Boston 
being one.
    No. 2, what is out of line is the proportion of our 
students for whom we pay tuition and pay exorbitant 
transportation costs who are being served outside of the 
District. The number, however, isn't increasing, and one of the 
ways by which we've been doing that is by adding seats each 
year in the school district. We plan to add 700 new seats next 
year. We added 600 new seats this year; 75 percent of those 600 
seats are filled.
    So we're trying to bring back more students, but we don't 
control the cost of their tuition outside of the placement 
within the District of Columbia. So it is a pretty complex 
issue, and while we have heard the impact of this with respect 
to transportation costs, and we would quickly like to blame the 
transportation administrator, part of his challenge originates 
with us. I mean, if he is transporting students, and we could 
service them here, and there is an agreement through the 
individual education plan process that we could service them 
here, then that relieves the burden on the transportation 
costs.
    But I would like to point out as well that we are 
collaborating with the council of the great city schools. Ms. 
Patterson has been part of that dialog for them to come in, and 
they will be coming in from June 5th through June 8th to review 
the system and the infrastructure of how routing is done for 
students with disabilities, and Mr. Gilmore is onboard, and we 
should have some findings on that issue that may relieve some 
costs. And we should have some findings in terms of the overall 
picture with respect to purchasing buses and the like. So we 
are going to have a full picture on this.
    Ms. Norton. Ms. Patterson, I was concerned that as the 
costs went up, the school system had no recourse except to just 
look at the cards on the table and switch to special education 
if necessary. This is a very important mandate.
    Do you believe that what Superintendent Janey is doing may, 
in fact, get us into some kind of balance here?
    Ms. Patterson. I think so. I think that adding seats is 
something we have been aware of. It has been ongoing over the 
last several years. I think that is a positive development.
    I also think, it is my understanding from Dr. Janey, that 
he and Mr. Gilmore are working together on a joint exit 
strategy, if you will, to bring that function back in house. 
But that does include--along with where the function resides, 
it also includes how to bring those costs down; how to go from 
I think it is 600 individual routes, how to bring that back 
down, because the costs, as he noted, are exorbitant.
    Dr. Janey. May I point out again the responsibility that 
resides within the school district itself? And this is separate 
from actual placement. And, as you know, we're under a number 
of consent decrees.
    But much more fundamentally at the school level, we know 
that there are 20 schools that have been responsible for 30 
percent of the referrals. But the good news is there are 14 
schools that have had no referrals. And finding out what is 
being done right and what is not being done right will allow us 
to address it on the very front end, as opposed to bringing 
students back or making some modifications or making some 
adjustments once students have been already classified.
    There are students and there are situations of which I'm 
sure you're aware where the problem is a function of really 
reading. And the preparation to teach reading to struggling 
readers is an enormous one, and if we are not prepared to do 
that, we may act by default, and a student may then be assigned 
to a classification in special education.
    Ms. Norton. And that, of course, would be a human tragedy, 
unforgivable, a human tragedy. But it happens, apparently, all 
across the United States.
    Mr. Chairman, I only have a couple more questions. If I may 
just get those done. One has to do with something that was 
slipped into our appropriation quite inappropriately, and with 
my good friends who chair the committee believing that the 
District has signed off on them, it had to do with charter 
schools. Two of them caused such calamity that we were able to 
move quickly on those.
    And the other, the third one, this is really for Ms. 
Patterson. We were told as far as the committee was concerned 
it's in the D.C. code, and where they have no problem with the 
committee changing it, what was--I won't even get into how 
complicated it was--had to do with the leave policy. The 
charter schools did something that is the most verboten thing 
to do in the District of Columbia, go around the city council 
and come up here and speak to somebody on one of the 
committees, and ask for some kind of change in the leave policy 
between charter schools and the D.C. public schools. That was 
so bollixed up that very few people, it seems to me, in the 
universe understood it. We got that crossed out.
    Then there was another where charter schools would get 
double discount credit on the sale of--if they bought a public 
school. We wiped that out easily.
    Then there was one about the right of first refusal.
    All of these were of great concern to the city, because it 
has to do not with schools, it has to do with the assets of the 
District of Columbia. We didn't get to that one. This all 
happened during the lame-duck session, and we had to fix what 
we could fix in the omnibus. But that had to do with the right 
of first refusal going essentially to charter schools where the 
council wouldn't have anything to say about it, the Mayor 
wouldn't have anything to say about it. Even within those there 
were permutations.
    My understanding, from our committee, and from what we have 
learned from the District of Columbia, is because this change 
was in the city council, the city council could change it. And 
the committee itself was incensed, on both sides, to know that 
the council and the Mayor had not given permission to do this.
    I'm asking you what the status of this one issue is, right 
of first refusal, because I do want you to know that if you 
change it to what the city wants, it is my judgment, based on 
what the appropriators said to me on both sides, that they had 
respected home rule, and they would have no difficulty with the 
District changing it. That would save me having to put 
something in a bill to change it. So I needed to know what your 
disposition is on that.
    Ms. Patterson. It is my understanding that we have not yet 
changed that. I believe there have been conversations between 
the Mayor's office and the council on that point. But one of 
the things that I hoped to do this fall in the course of 
oversight on the charter law itself is surface any other extant 
issues that we probably need to address now that we have had 
the charter law in place for 7 or 8 years. But there has been 
no change yet. Thank you.
    Ms. Norton. Thank you very much, just as long as you take 
care of it.
    Mr. Chairman, I just have one more question. It has to do 
with the dropout rate. I think you, Mr. Chairman, mentioned 
truancy. Everybody was concerned about headlines of truancy in 
the District. When I inquired about it, and inquired of our 
committees, I found that there is no uniform way to judge 
truancy. So these figures about 1.8 in Prince George's versus 
something else in the District of Columbia--I am going to try 
to get on to the education authorization or its appropriation 
something that, even given these differences, that have to be 
there because these are matters of such local concern--there 
would be some way to compare school districts. Because these 
comparisons--when I found out, for example, that Prince 
George's and D.C. and Montgomery and Fairfax regard different 
kinds of days and different kinds of excuses as truancy, I 
don't see how we can do No Child Left Behind without finding 
some way to at least know what--have some kind of language even 
given the fact that each district must be able to have its own 
truancy policy.
    I'm concerned about whether No Child Left Behind will leave 
us with a larger dropout rate than we have. I have my own 
commission on black men and boys, feminist though I am. I am so 
concerned that while the dropout rates are serious for 
everybody, I don't know where the boys are in our country and 
in the District of Columbia.
    As we understand, there is a shortfall of about $34 million 
in No Child Left Behind. I want to know whether or not that is 
going to be reflected at some point when graduation rates kick 
in, and you have to pass whatever tests you describe in order 
to graduate from high school. How are you going to keep the 
combination of our own, our already high dropout rate and the 
mandate from No Child Left Behind, resulting in greater dropout 
rates? What are you doing to keep these children in school?
    Dr. Janey. I will begin the discussion, or at least the 
response to the answer.
    The very first thing I think we have to do is identify the 
breaks in service over pre-K to 12th. When we see the evidence 
of students being prepared to drop out, so to speak, that is, 
they have--they're over age, they have been retained in grade, 
there are social circumstances outside of school. They're very 
poor readers. That is probably one of the most common threads 
among all dropouts, that they are very poor readers, if they 
are readers at all.
    We have to identify where that is occurring before it--is 
9th grade or 10th grade where the bulk of the students who drop 
out, that is where it occurs at those two junctures. So if 
we're doing it early enough, there are interventions that are 
successful. There are some that we know that are successful 
within the academic community, and I think there are 
interventions outside in terms of the wraparound service 
providers. But I think the key thing is identifying early 
enough prior to someone making a decision to separate from a 
district and drop out, getting those triggers in line so that 
we're not behind the curve, we're in front of it, and we are 
able to do something 2 or 3, 4 years out.
    The second big thing, I think, is being able to make good 
on what is in this strategic education plan, and that is to get 
beyond State certification and get a cohort of teachers who are 
nationally board certified. If we do that, we are going to 
really be able to deploy those best teachers and those best 
situations where we can really arrest the symptoms of the 
dropout and actually get to teaching those students and 
providing the support services they need, as well as their 
families need.
    So I think we're poised to make a difference. And I would 
say the last point would be we will be having discussions with 
the board of education about altering the time by which a 
student is allowed to graduate from high school. If we took a 
survey right now, we would find out both in our charter 
schools, Fairfax County and DCPS, that students are prepared to 
graduate--some of them are prepared to graduate in 3 years, the 
target still being 4 years. But others may need a 5th year, 
only because when they started ninth grade, they were behind 
already. Instead of them being keen to drop out, if you 
extended the year and held quality constant, we would be giving 
students an opportunity to make up that time within a 
reasonable period of time, meaning 5 years. That is not 
unreasonable for a student to finish, as long as they're 
finishing with a diploma that means something.
    Chairman Tom Davis. Thank you very much. Let me thank this 
panel. We have asked you a lot of questions, but this is very, 
very important. And again, we look forward to working with all 
of you and calling all of us to cooperate together to make this 
work.
    We will declare a 2-minute recess before we get our next 
panel up.
    [Recess.]
    Chairman Tom Davis. We are here with our second panel. I 
appreciate your patience. We have Mr. Jason Kamras, the 
national teacher of the year, from District of Columbia public 
schools. We have Ms. Iris Toyer, chair of Parents United for 
the District of Columbia Schools; and Ms. Carolyn Dallas, 
executive director of Youth Court.
    It is our policy that we swear you in before you testify, 
so if you just rise with me and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Jason, we will start with you. You 
bring great honor to the city and to the region, and we're 
very, very pleased. Is this your first time before a 
congressional committee?
    Mr. Kamras. It is. Yes.
    Chairman Tom Davis. Then you have to push the button in 
front of you. Now how does it sound?
    Mr. Kamras. Much better.
    Chairman Tom Davis. Thank you for being with us, and 
congratulations on a very well-deserved reward. And you have 
got a couple of students with you?
    Mr. Kamras. I do. I'll have them introduce themselves if 
they want to stand up.
    Ms. Watkins. Hello. My name is Ta-Sha Watkins. I'm a ninth-
grader at Banneker Senior High School.
    Mr. Jeter. My name is Marco Jeter. I'm a ninth-grader. I go 
to Cesar Chavez Public Charter School for Public Policy.
    Chairman Tom Davis. Thank you for being with us. I know 
you're eager to get back to class, so we'll try to move this 
along. Go ahead.

STATEMENTS OF JASON KAMRAS, NATIONAL TEACHER OF THE YEAR; IRIS 
   TOYER, CHAIR, PARENTS UNITED FOR THE DISTRICT OF COLUMBIA 
  SCHOOLS; AND CAROLYN DALLAS, EXECUTIVE DIRECTOR, YOUTH COURT

                   STATEMENT OF JASON KAMRAS

    Mr. Kamras. Good morning, Chairman Davis. I would like to 
first thank you for the opportunity to speak before this 
committee this morning.
    And, Congresswoman Norton, let me also thank you for your 
extraordinary kindness that you have shown me personally, and 
for your tireless advocacy on behalf of the District's 
children.
    Let me begin by saying that I'm extraordinarily proud to be 
a District of Columbia public school teacher. My colleagues in 
the District are incredibly dedicated and inspiring 
professionals who share their creativity, their intellect, and 
love with children of all ages, and they do so each and every 
day.
    There is simply no group of people I would be prouder to 
represent.
    I would also like to take this opportunity to share with 
the committee how honored I am to have the opportunity to work 
with the children of the District of Columbia. And as you just 
met Ta-Sha and Marco, they're examples of the finest in our 
school system.
    I have the distinct pleasure of working with these two 
amazing young adults as their seventh and eighth math teacher, 
and they also participated in a digital photography program 
that I direct at Sousa. Like all of my students, they are 
incredibly bright, creative, caring, and inspiring. They're the 
District of Columbia public schools.
    Although they could not be here, I would also like to 
recognize Ta-Sha's mother, Ms. Johnson, and Marco's mother, Ms. 
Jeter. Like every parent I have encountered in my 8 years in 
the classroom, they are deeply and passionately committed to 
the success of their children. We have collaborated as 
educational partners, and I look forward to continuing our work 
for many years to come.
    I have been asked by this committee to comment on the 
factors that led me to teach in the District, but in the 
interest of brevity, let me just focus on one of these factors, 
a program called Teach for America.
    Founded by Wendy Kopp nearly 15 years ago, Teach for 
America is a national organization dedicated to eliminating 
inequity in our public schools. Specifically, the program 
recruits, trains, and supports highly motivated college 
graduates to teach rural and underserved urban and public 
school districts and become lifelong leaders in the effort to 
close the achievement gap.
    Teach for America's focus on equity and its rigorous 
training and its support immediately attracted me. I applied in 
the fall of 1996, and I was accepted into the program and 
assigned to the Washington, DC, region. I was hired as a sixth 
grade mathematics teacher at John Phillips Sousa Middle School 
in southeast Washington. Save for 1 year, when I was at the 
Harvard School of Education, I have been at Sousa ever since.
    Like many urban schools, Sousa faces a number of 
socioeconomic challenges, but these challenges do not define 
the school. For me, Sousa is Marco, Ta-Sha, and the hundreds of 
other extraordinary children who enter its doors each morning. 
They are why I love my job, and why I am so proud to be a 
teacher here in the District.
    Despite the challenges that Sousa faces, my students are 
achieving. As evidence of this, let me share with you the 
results of the mathematic initiative that I recently developed 
and implemented at my school. Through this initiative, we 
doubled the amount of instructional time allocated for math 
instruction. We redesigned our curriculum to emphasize a real-
world context for all concepts, and we greatly expanded the use 
of technology in the classroom.
    When I piloted this new program with my colleagues, the 
percentage of students going below basic, indicating little or 
no mastery of subject matter on our district standardized 
assessment, fell from approximately 80 percent to 40 percent in 
just 1 year. This was the largest drop in the below basic 
percentage that the school had ever seen, and I am now working 
to expand this program to the entire school.
    In our effort to replicate and expand our success and in an 
effort to answer this committee's request for insights into how 
we can ensure high levels of achievement for all District 
children, I have reflected a great deal on our program. I have 
identified five key factors that I believe are most critical to 
our success. The first is the quality and dedication of the 
teachers involved in the program's implementation.
    We created much of our own course material, strategically 
designed our lesson plans, and worked 14-hour days, tutoring 
before and after school and on weekends. We were and we 
continue to be absolutely driven. If we are to reach new 
heights in the District, we as teachers must be relentless in 
our pursuit of excellence.
    We must also ensure that we have a steady pipeline of 
first-rate educators entering the school system. We can achieve 
this by recruiting aggressively, by continuing to streamline 
our hiring practices, and by offering financial incentives to 
make it feasible for educators to live in the metropolitan 
Washington region. In addition, we must redouble our efforts to 
retain high-quality educators. To do so, we must ensure that 
working conditions continue to improve, and we must make 
certain that our teachers have the opportunity to participate 
in robust, sustained, and job-embedded professional 
development.
    The second factor that was critical to our success was 
effective school leadership. My principal was immediately 
receptive to my ideas about revamping the math curriculum, and 
was extraordinarily supportive during the implementation 
process. He did not feel the need to dictate; rather, he 
trusted me to be an instructional innovator. This freedom 
combined with support was integral to our success. Effective 
school management empowers a faculty to overcome so many of the 
challenges it may face. We must ensure that the District 
redoubles its efforts to attract and retain dynamic school 
leaders who love instruction, who manage collaboratively, and 
who are distinctive problem solvers.
    The third factor that was critical to our success was 
outreach to parents and guardians. We made a concerted and 
sustained effort to involve our children's families every step 
of the way. As a result, we were able to develop a 
collaborative educational environment that enveloped our 
students 24 hours a day. As our school system moves forward, we 
must do more to support and engage parents and guardians who 
are, after all, the front line of education.
    The fourth factor was an increase in technology resources. 
In specific, through grant writing I was able to acquire a 
minicomputer lab, an LCD projector, a document projector, and 
digital cameras. These technologies revolutionized my teaching. 
They allowed me to more effectively meet individual learning 
needs, and significantly increase student motivation and 
engagement. As a system, we must make greater investments in 
the structural technology and in the training necessary for its 
effective use. I guarantee that such investments will result in 
dramatic achievement gains.
    The fifth and most important factor is less tangible. It 
was an unyielding belief that each and every child had the 
capacity to achieve at the highest levels, combined with the 
expectation that they would do so. I simply cannot overstate 
how important this was and continues to be to my success in the 
classroom. When we as adults set the highest of standards for 
our children, we send a message that we care deeply about them. 
Students inevitably rise to the occasion. I can attest to this 
personally. I have had countless former students tell me how 
much they appreciated the high bar that I set for them in the 
seventh and eighth grades. They tell me how that motivated them 
to achieve, and how they are now in advanced math classes 
because they have outperformed their peers.
    As a city, we must be united in believing, without 
question, in our children's inherent capacity for greatness, 
and we must continue to set the highest of expectations for 
them. Excellent teachers, effective school leaders, sustained 
parent/teacher collaborations, increased instructional 
technology, and high expectations will result in greater 
achievement, even in so-called disadvantaged districts; I can 
attest to this personally. We owe it to our children to provide 
these elements at each and every school.
    Let me close by saying once more how proud I am to be a 
public school teacher in the District of Columbia. I believe 
deeply in our system, and I will continue to work tirelessly on 
its behalf. Its greatness lies within its students, 
extraordinary young people like Ta-Sha and Marco. Let us 
continue to be undaunted in our pursuit of excellence so that 
all students in the District will have the opportunity to 
pursue their teams.
    Thank you.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Kamras follows:]

    [GRAPHIC] [TIFF OMITTED] T1591.064
    
    [GRAPHIC] [TIFF OMITTED] T1591.065
    
    [GRAPHIC] [TIFF OMITTED] T1591.066
    
    [GRAPHIC] [TIFF OMITTED] T1591.067
    
    [GRAPHIC] [TIFF OMITTED] T1591.068
    
    [GRAPHIC] [TIFF OMITTED] T1591.069
    
    [GRAPHIC] [TIFF OMITTED] T1591.070
    
    Chairman Tom Davis. Ms. Toyer, thanks for being with us.

                    STATEMENT OF IRIS TOYER

    Ms. Toyer. Good afternoon, Chairman Davis, and especially 
to Ms. Norton. I am Iris Toyer, chairperson of Parents United 
for the D.C. public schools, and, like Ms. Norton, a graduate 
of the school system.
    Chairman Tom Davis. I'm also a graduate of the D.C. public 
school system.
    Ms. Toyer. Congratulations. As a local organization, I will 
tell you that Parents United is unparalleled in our 
understanding of the school budget, and that is where we focus 
much of our work. And because I was asked to come today as a 
representative of parents, I put these questions that were 
given to me to our mailing list of parents, and so I hope that 
my responses honors the responses that I received.
    I will tell you that much of the good work that Dr. Janey 
has done working with parents, working with the other advocate 
organizations, has not necessarily trickled down to the entire 
parent population, and so much of the response is based on what 
parents are still feeling today. It does not take into account 
the standards, the teacher development, and all of the other 
good work that we know is going on.
    Our impression is that DCPS is a system in recovery that is 
attempting to make a comeback from years of being mangled by 
elected and appointed officials at every level of government, 
suffering from disputes over governance, constant changes in 
leadership, vouchers, the proliferation of charter schools, and 
underfunding of the operational and capital budgets.
    We know that there are many dedicated employees such as 
Jason that are daily, along with parents, struggling to make 
our schools better. I would say that what we want to point out 
is that the Control Board put in place its Board of Trustees, 
and unfortunately we found when they departed in 2001, that not 
much had changed. As a matter of fact, there was a lack of 
financial and reporting systems created by decisions made under 
the Control Board that has continued to cost the city millions 
of dollars. There was a dismantling of human resource systems 
and a gross underfunding of schools' needs, especially in 
facilities and maintenance repair. Frankly, the level of 
dysfunction in the wake of the Control Board was startling, and 
we're still dealing with it today.
    On the question on what low-performance schools need to 
improve, I would say that I think that low-performance schools 
need what high-performance schools need: We want talented, 
well-trained teachers and principals who have high expectations 
for every child, support from the central administration, and a 
level of resources that accurately reflect the cost of 
educating low-income students. Parents United would frankly 
like to see some help from the city, the system, the Federal 
Government, in getting those 1,400 teachers certified. I can 
tell you that 4 years ago the board went through a process 
where they terminated hundreds of teachers who had not become 
certified within the prescribed amount of time. Time has once 
again come due, and here we are again talking about eliminating 
teachers. Something clearly has to be done in that area, and we 
think stipends or tuition assistance would help tremendously.
    I want to again acknowledge that Dr. Janey has put in place 
academic standards that will be implemented this fall. And I 
think that the system needs to take advantage of that so that 
parents leave in June with high expectations for our schools 
come September, teachers that will be trained over the summer. 
We all need to know about the good things that are happening.
    DCPS needs to inspire its staff, parents and students. We 
have pockets of success that were talked about earlier. Mr. 
Kamras is one of them that I cite in my testimony because, 
frankly, lots of parents feel unconnected to their schools and 
not welcome.
    On the bright side, Dr. Janey has talked about establishing 
parent centers not only in low-income neighborhoods but across 
the city, so those will be points of contact for every parent 
and community member who wants to interact with our schools. 
And, of course, there is the good work of the D.C. Ed Compact.
    Finally, I want to talk about, just briefly, the capital 
plan and the budget. The question was, was it realistic and 
fiscally responsible? And I think the question has several 
underlying issues. First, the master facilities plan was 
created at a time when there were more students in our schools; 
subsequently, it needs to be revised to reflect the current 
enrollment, with an eye toward future needs. Having made the 
point, however, the capital budget is in no way sufficient to 
support a major capital program. I think the greater question, 
frankly, is does the plan support the educational needs of our 
system; and that is what needs to drive the facilities plan, 
not that we are just building buildings. We can do that day in 
and day out, but if what is going on in those buildings does 
not improve the quality of education, then we are no better 
off.
    Frankly, there was discussion earlier about the Army Corps, 
and parents who have children in those beautiful buildings will 
tell you that the work was substandard, incomplete, not done 
according to schedule and at extreme cost overruns. And 
frankly, we can't hold that contractor accountable for the work 
done or not done.
    The decision to use the Army Corps, again, was the 
consequences of the Control Board. The one school that the 
system is managing, the project frankly is on schedule and on 
budget at last check. We know that Dr. Janey is just in place, 
and we are concerned that their ability, frankly, to manage a 
massive construction program at this point in time is limited. 
We look for, with the Council's help and the Mayor's help, 
greater things to come out of the proposals that have been put 
forward in terms of school construction, because our buildings 
are literally falling down around our children's ears.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Ms. Toyer follows:]

    [GRAPHIC] [TIFF OMITTED] T1591.071
    
    [GRAPHIC] [TIFF OMITTED] T1591.072
    
    [GRAPHIC] [TIFF OMITTED] T1591.073
    
    [GRAPHIC] [TIFF OMITTED] T1591.074
    
    [GRAPHIC] [TIFF OMITTED] T1591.075
    
    [GRAPHIC] [TIFF OMITTED] T1591.076
    
    [GRAPHIC] [TIFF OMITTED] T1591.077
    
    Chariman Tom Davis. Ms. Dallas.

                  STATEMENT OF CAROLYN DALLAS

    Ms. Dallas. Yes. Thank you for inviting me to speak today. 
My name is Carolyn Dallas. I am the executive director of the 
Time Dollar Youth Court program. I have been asked to speak 
about the Youth Court program, and also our relationship with 
the DCPS.
    First of all, very briefly, the Youth Court program is a 
program designed for kids that get in trouble with the law. 
They're first-time nonviolent offenders, and they have the 
option of being diverted to Youth Court for 10 weeks to 
participate in our program. They have various sentencings they 
can get; they can get jury duty, community service, peer 
tutoring, college prep, youth development, an essay, or even an 
apology that they may have to do.
    We basically, over the last year, we've had about 600 
referrals; 400 of those referrals have come from the Police 
Department. Our third highest list of cases is really truancy. 
About a year ago we started working with Dr. Diane Powell at 
the Student Intervention Center to put in a truancy piece with 
the Youth Court. Basically what happens is that the youth that 
gets sentenced to Youth Court also gets sentenced to peer 
tutoring. And the peer tutoring works where we work with one of 
the Fletcher Johnson schools. Our kids go there twice a week 
and they tutor young people. What this does for our kids is it 
really helps them build their self-esteem and gives them a 
feeling that they're doing something that's important and 
valuable, and at the same time the tutee receives instruction, 
they receive additional support that they may not be getting in 
school, and they also feel that they have an older brother or 
an older sister that is sort of helping them out.
    By the same token, another component of the program is the 
college prep program. A lot of the kids that come before Youth 
Court that are sentenced have no idea of what's going on in 
their lives in terms of completing school. We work with them 
twice a week down at the MLK Library, and there we start to 
begin to talk to them about, what are you interested in, are 
you aware that you can go to college, do you understand 
financial aid? And so what happens there is that, you know, 
students begin to feel I can succeed at something, I can 
achieve something.
    I like to think of Youth Court as a program that gives 
students an opportunity to achieve in a different environment. 
And so we have been working with DCPS around this, and I think 
when I look at the challenges that are ahead of us, especially 
for DCPS and Youth Court, is that a lot of the kids that come 
to Youth Court talk about safety in schools, they talk about 
not being motivated, they talk about possibly being labeled and 
not really performing very well.
    I think we have to provide an environment where kids want 
to go to school and stay in school. There has to be various 
things there that kids can do that make them feel good about 
being in school and want them to attend. By the same token, we 
have to involve the youth as solutions, too. They can't be seen 
as a problem; we need to invite them in to figure out how do we 
solve some of the problems that's going on.
    And then third, I think for me, if the Youth Court could 
work more closely with DCPS and become advocates for some of 
the kids that are coming through our system, I think this would 
be very helpful.
    Thank you.
    [The prepared statement of Ms. Dallas follows:]

    [GRAPHIC] [TIFF OMITTED] T1591.078
    
    [GRAPHIC] [TIFF OMITTED] T1591.079
    
    [GRAPHIC] [TIFF OMITTED] T1591.080
    
    [GRAPHIC] [TIFF OMITTED] T1591.081
    
    [GRAPHIC] [TIFF OMITTED] T1591.082
    
    [GRAPHIC] [TIFF OMITTED] T1591.083
    
    [GRAPHIC] [TIFF OMITTED] T1591.084
    
    [GRAPHIC] [TIFF OMITTED] T1591.085
    
    [GRAPHIC] [TIFF OMITTED] T1591.086
    
    [GRAPHIC] [TIFF OMITTED] T1591.087
    
    [GRAPHIC] [TIFF OMITTED] T1591.088
    
    [GRAPHIC] [TIFF OMITTED] T1591.089
    
    Chairman Tom Davis. Well, thank you all for your testimony. 
You give a different perspective than the insiders who have 
been up here trying to work at it for a long time.
    Mr. Kamras, let me start with you. How many of your 
Princeton classmates are teaching in public schools today? What 
percent?
    Mr. Kamras. Honestly, I don't know.
    Chairman Tom Davis. Pretty small, isn't it?
    Mr. Kamras. I would imagine so.
    Chairman Tom Davis. Well, we appreciate the dedication and 
the academic rigors that you had to go through to graduate and 
try to bring those standards back to public school systems; 
because it is really expectations, and once systems have low 
expectations, they meet them, they try to meet those 
expectations.
    I think in many ways what you're doing is you're changing 
the world a person or a few kids at a time, which is probably 
the more successful way to do it. We have all these broad 
programs and we found out that at the end of the day it comes 
down to targeting a neighborhood or a family or something like 
that; you can be more successful than doing it on a very broad 
basis. And I think your efforts are what has brought you 
Teacher of the Year, and I appreciate it very much.
    Mr. Kamras. Thank you.
    Chairman Tom Davis. What has been your observation--if you 
could ask what we could do from our level to help the school 
system the most, what would it be? Just say one or two things 
from a Federal perspective. Remember, the city is spending more 
per student than we are in any other areas around the capital. 
I mean, money is always--don't just say money; what else is it?
    Mr. Kamras. Well, aside from the expectations piece which--
that you just mentioned, I think it's all about people, to be 
perfectly honest. It's about recruiting and retaining really 
excellent teachers and school leaders as well. I think having 
excellent people in schools can make up for so many other 
deficits, be they resource deficits or facilities deficits. By 
having people who are incredibly well trained, who are 
undaunted about what they're doing, they find a way to achieve. 
And so I think we need to focus more on bringing people--new 
teachers into the system as older teachers are retiring, and 
doing everything we can to retain those teachers, at the same 
time, school leaders, as the previous panel spoke about. Having 
an effective school leader who manages well and who is 
efficient and who is always looking to problem solve makes an 
extraordinary difference; it changes everything that happens in 
a school building. And again, it can make up for not having as 
much money as perhaps you need to have. Again, which isn't to 
suggest that I wouldn't want to continue to advocate for those 
resources, but having effective leadership and people in the 
building, teachers and others who are committed to a common 
purpose makes an extraordinary difference.
    Chairman Tom Davis. I had a lady who spent her year between 
high school and college to work on my campaign in 1994. She 
graduated from Yale and came back to the city to teach. And 
after a year teaching in the system she was just burnt out and 
frustrated. You weren't. But a lot of good people are. They 
come here with the best motives, they want to move ahead. What 
do we do to keep those people motivated?
    Mr. Kamras. Well, we need to support them. We need to make 
sure there is real sustained professional development once they 
get into the system, not half a day every 3 months on the hot 
topic of the month.
    We need to make sure that working conditions are what they 
need to be, and that's partly a facilities issue, but it's also 
partly just making sure that things run efficiently, that 
people are paid on time, that teachers feel involved in the 
policymaking that affects their work.
    Chairman Tom Davis. You have people not paid on time at 
times?
    Mr. Kamras. It has occurred. Also we want to aggregate 
people who are high performing so that you develop a nucleus, a 
critical mass in a school so that there is a shared sense of 
possibility. When you put a person who has very high 
expectations and set them out in an island where perhaps 
expectations aren't as high, that can be very challenging and 
can make one lose their focus. So by continuing to aggregate 
people and linking them up with great school leaders, I think 
you're going to find that a lot more people will stay in the 
school system.
    Chairman Tom Davis. Ms. Toyer, let me ask you. Your group 
has been very involved in the D.C. public facilities battles 
through lawsuits and certainly advice to this committee and 
everything else. It would be my vision that as we look at the 
General Services Administration and surplus Federal property in 
the city, and look at ways we can get some of that property off 
the Federal rolls onto D.C. tax rolls, that you do the same 
with schools. And in some cases you may want to swap an old 
school that's in a commercially viable place. You maybe make 
that a commercial center and return it to the tax rolls and 
build a new school somewhere elsewhere where we can get--where 
the land won't cost anything and we can take some of the 
profits on the property to build new schools and so on. Is that 
approach reasonable?
    It seems to me the number of new schools being built in 
this city are very few, the average age of these schools is 
much, much older, and you have a maintenance cost that is much 
higher in the city than you have in suburban areas and all 
that. Any thoughts on that?
    Ms. Toyer. Well, you know, we only have a few schools that 
sit on highly valued property in our downtown area.
    Chairman Tom Davis. Well, it wouldn't have to be downtown, 
it could be----
    Ms. Toyer. But those that are--that come to mind easily on 
Capitol Hill and primarily in Georgetown are neighborhood 
schools. And Washington, if nothing else, values its 
neighborhood schools. The schools that, frankly, are less 
populated are in communities where there are--where, you know, 
the value of the land isn't as high.
    You know, we recognize we have too much space and not 
enough children, but the education program has to drive the use 
of those facilities, as Dr. Janey has talked about; for 
example, using school buildings for--a school building for the 
parent centers. He has also talked about moving out of the 
North Capitol office space.
    Chairman Tom Davis. How about colocating schools with other 
public service areas? It could be a----
    Ms. Toyer. And that is a consideration. The Council is 
going to hold hearings on colocation. I think that one of the--
a requirement in the proposal that Chairman Cropp put forward 
that the board take action to look at colocation, we want to be 
very careful about what we talk about putting in buildings with 
schools, I mean----
    Chairman Tom Davis. Of course, of course.
    Ms. Toyer. And we want the school communities to have a 
great deal of say----
    Chairman Tom Davis. You do. But something's got to give 
here, you can't just do the same old, same old, the way things 
are. But I understand. As long as we're willing to discuss it 
and move forward. Everybody loves their neighborhood school, 
but right now we have a surplus of space. And I tell you, I can 
walk in a school and tell you how that school is performing by 
the way it looks. It can be old, but a school that takes pride 
in itself, it's spic and span; you can get a feel right now for 
the standards that school has set by physically how it is 
looking, not how old it is, but is it cleaned up, is there 
trash in the halls? It is incredible what you see in some of 
these areas.
    We're going to have to take a look at moving some areas, 
rebuilding some areas over the long term in the city anyway. 
Some of these schools are just literally falling down and the 
maintenance costs are high.
    Ms. Toyer. Well, we would like them to look at it like an 
economic development strategy. As the Mayor talks about 
bringing new residents into the city, we want him to bring new 
families into the city. And what I can tell you is that of the 
almost 10 new schools that have been built, every single one of 
them is at capacity and, frankly, bursting at the seams 
already. And these are many families who had not previously had 
their children in D.C. public schools. But they see these 
fabulous buildings, and it is a draw.
    Chairman Tom Davis. I've got thousands of my constituents 
who would love to live in the city. And that's where their life 
is, that's where their job is, so that's where they orient. But 
the school system, once they start having kids, the school 
systems have been discouraging from moving out. Now if we can 
turn that around, then you can get the complete renaissance. 
And we're hopeful, we certainly aren't giving up here. We've 
done the D.C. Tag, a lot of things that we think would help. 
We've done the real estate benefits for the city to help its 
economy grow. So we're not giving up from our perspective; 
there is only so much we can do institutionally on that. But we 
appreciate all your help on that, and the same with Ms. Dallas, 
but my time has expired.
    Ms. Norton.
    Ms. Norton. Well, thank you very much, Mr. Chairman. And 
particularly for the generosity for the panel that really 
needed to be on the hot seat, because they have the 
responsibility for the schools. I really have only a few 
questions for this panel, which I think has done a remarkable 
job in each of their respective spheres.
    I do appreciate, Mr. Kamras, that you brought your 
students, and the clear devotion you show to them and to this 
city. When I first heard of your award, I wasn't able to reach 
you, but I went to the floor of the House to speak simply on 
what it meant to the District to have you recognized. And a 
message is sent about others in our public school, the very 
fact that you were chosen to come here, that you have been 
chosen, that the addition in the newspaper about what you did, 
the extra mile you go, was some indication, it seems to me, of 
others like you in the D.C. public school system. We certainly 
hope you will never consider going any other place----
    Mr. Kamras. Don't worry.
    Ms. Norton. I know you're from New York----
    Chairman Tom Davis. He's from Sacramento, isn't he?
    Ms. Norton. I thought you were from New York. Where are you 
from?
    Mr. Kamras. I was born in New York, grew up in Sacramento.
    Chairman Tom Davis. We're both right. But he's a D.C. guy 
now.
    Mr. Kamras. Yes, yes.
    Ms. Norton. I know that you came out of college here on the 
east coast of Princeton to D.C., maybe you learned a little bit 
more about the city then. I would be interested in knowing--I 
know Teachers for America brought you here--whether you had any 
choice of the city you were to come to, what you think--does 
D.C. have its full complement of Teach for America teachers? 
And what has been the response of the other teachers and the 
young people, who are not involved precisely in your subject 
matter, to what you have done in--I suppose it is math and 
science; is it contagious in the school, or are you one guy 
doing an excellent job? Is everybody else kind of saying wow?
    Mr. Kamras. Well, first of all, thank you for your very 
kind comments. And also I want to thank you formally for 
speaking at the ceremony from the District in celebration of 
Teacher of the Year. I do appreciate that so very much.
    Why D.C.? Participants in the Teach for America program do 
have some control over where they go, and D.C. was one of the 
cities that I was most interested in working in, one, because I 
knew that it did need teachers, and also, I had visited the 
city when I was younger with my family and developed a deep 
love for the city. Its neighborhoods are some of the most 
wonderful I have ever seen, and its rich diversity and 
fascinating history really attracted me to the city. And I also 
have had something of a love for policy, so it was a natural 
fit for me as well.
    Your second question was about Teach for America and does 
it have its full complement. I believe we could expand the 
program in the city to bring more teachers to the District; so 
I think there is a lot of room for growth there, as well as 
investment, both from the Federal Government and from the local 
government in supporting the program as they bring and support 
new teachers into the District.
    And third, what has been the response? It has been 
incredibly positive. And I'm so proud that I have been able to 
take some lessons that I learned from this math initiative and 
then begin to expand them to the rest of the school. And so I 
have been able to put together a team of people at the school 
who are working to really implement these ideas school-wide. 
And we still have much work to do, no doubt, but I'm confident 
that now that we're on the same page, things will really begin 
to turn around.
    Ms. Norton. It will be interesting to know when the new 
curriculum comes, whether you--who you are doing jobs with and 
whether there is some flexibility, given your success, when the 
new curriculum comes. I will be most interested to hear that.
    Let me go on to Ms. Toyer. Parents United is basically the 
only watchdog for the system. Otherwise we're dependent upon 
government officials themselves. And you have often uncovered 
incredible evidence that we would have had no other way to get 
to. You're more than a watchdog, of course, you are heavily 
involved in technical issues that are very inside baseball, 
except when it comes out in the wash, which means in the way in 
which children respond or children develop--if I could mix my 
metaphors between the Washington baseball.
    The chairman mentioned schools that may be on land and 
perhaps taking that land, using it for other purposes. And of 
course, you know, that might make some sense once you get into 
these land issues involving schools. I'm glad I'm on the Hill 
and not in the District. I do know that some--there are, of 
course, places other than downtown that people want to go. 
Those would be just the schools that are filled up. Everybody 
better understand how it works here.
    One thing parents know how to do is to transfer their 
students from schools deep in the most troubled parts of the 
District to other parts of the District. So it would be 
interesting and a difficult thing for people who are not in the 
school system--I'm talking about residents of the District of 
Columbia to understand--is that these schools that have better 
reputations, often not in their neighborhood, look like they're 
favored in the number of students--in the number of teachers 
and the resources, but that's because people have voted with 
their feet. And the notion of that transfer policy being as 
liberal as it has been for decades is one of the most important 
things that the District has.
    So, you know, if you're anywhere close to wherever there is 
valuable property, there is likely to be a school--whether 
we're talking Capitol Hill--I mean, I know about the schools on 
Capitol Hill. That's where I live. Some of them would be there. 
You mentioned Georgetown. Yet, those are the schools that 
district residents, regardless of where they live, prefer. I 
don't envy this notion this superintendent is going to have to 
face, what to do about schools with two kids in them while 
other schools are filled up. And it is always a huge, huge 
fight.
    Let me ask you, though, about something that is very 
worrisome, this whole notion of parental involvement, you all, 
Parents United. Now parental involvement means for many folks 
that somehow parents are sitting in school and come to school 
and so forth, and it really would be very good to have happen. 
I must say that for most middle-class families, for example, 
that's really not what it means, it means that the parent is so 
attached to the child and what a child does in school that 
while the teacher might not see the parent on any kind of 
frequent basis, the parent is involved with the child at home 
so that is reflected in the school.
    When we get to truly disadvantaged children, we believe 
we've got to have some contact, some direct contact. Over and 
over again, we hear that PTAs are thinly populated with 
parents, and that the parents are just not there for the 
children, and that therefore the teachers have to pick it all 
up. Would you give us some insight on whether or not there are 
some special kinds of outreach to parents that would help to 
reinforce at home what beleaguered, absolutely besieged 
teachers often are trying--and sometimes succeeding--to do--at 
school?
    I mean, this goes for you, too, Mr. Kamras. I mean, you 
have been fortunate, you haven't even been in the whole school 
yet. Wait until you get to the whole school. And assume that 
the transfer rate occurs. I'm interested in how we can reach 
parents without repeating the mantra over and over again, 
parental involvement, parental involvement; how do you make it 
happen?
    Ms. Toyer. Well, I think it's important to define what we 
call parental involvement. I know if a child comes to school 
ready to learn, and is respectful and does what he is supposed 
to do and knows that, you know, they're not going to be 
disruptive or whatever, that is a result to me of parental 
involvement. So it doesn't mean that every parent, as you have 
indicated, is going to be in the classroom or even in the 
building. They may not meet that teacher the entire year, but 
if that teacher sees that he brings--his or her homework is 
prepared in class, that's a result of parental involvement.
    I had a conversation recently with a very close friend of 
mine who went to a session at Gallaudet that the charter school 
people did. She teaches in a charter school, and she said they 
had this whole session on parent involvement. And the 
conversation that we had is that, you know, when you think 
about PTA, it is a very middle-class concept; people who go to 
church every Sunday or, you know, have some connection with 
that, who have been in Girl Scouts or some kind of community-
based organization like that, membership organization, are 
natural joiners. If you have not had that experience over your 
life and you now have children and people are saying oh, you 
need to come to school, join the PTA, that has absolutely--it 
doesn't resound with you, it has no resonance.
    And so I can think of a number of schools around the 
community, around the city, that have done very well with 
parent involvement because they have offered programs in the 
school for parents who don't necessarily feel welcome, that 
don't feel that they necessarily have something to offer in the 
classroom.
    One of the teachers told me she learned a lesson. She 
invited a parent to come in, and she said oh, you can help me 
with one of my reading groups, and the parent seemed kind of 
put off--and it was a fourth-grade class, so you would think 
that person would be able to do that. She said, in talking with 
her family member she discovered that one of her uncles could 
not read. And so to make that--to assume and make requests of 
people that they have a certain level of skill was offputting. 
Rather than that, she just asked the parent come in and sit 
down, help me. Just watch the children, help me keep order. And 
it was a comfort level that she was able to reach with that 
parent that enabled the parent to feel like she was making a 
valuable concept.
    Some schools have social workers. There is an organization 
here--and the name right now escapes me--it's the Telling 
Stories Project, and it is about bringing parents in, and the 
mantra is that everybody has a story to tell. So they invite 
parents in to focus on their own experiences. They find that 
their experience is like others. And they use that as a 
mechanism to get parents involved in the local school. They do 
a quilt based on their stories, I mean, there are lots of ways 
to do it that are not expensive that really need to be 
proliferated across the city, because we need parents, and 
clearly our schools can't do it without us.
    Ms. Norton. Thank you very much for that. I must say--and 
how can I forget his name, he was a good friend at Yale, the 
child great expert in early childhood development in raising 
the scores of the lowest performing children, all of whom came 
from public housing in New Haven found that putting programs 
that address the parents' need only in the school had the 
effect of drawing to the school and then to the child. In other 
words, here is some poor parent, a poor parent, attracting the 
parent to the school for the first time; that bait gets taken 
and somehow crosses over.
    Final question, Ms. Dallas. I do want to compliment you on 
what you are doing. That kind of innovation, that early 
intervention, that kind of innovation is what everybody talks 
about, and we see so few examples of. In your Youth Court, 
where you catch somebody when they've got a small drug offense 
or a truancy and they go before their peers, this is very, very 
promising to hear of.
    I'd like simply an answer to this question. One, I'd like 
to know where the funding comes from. Who funds you? And I'd 
like to know what have been the rates of success? That is to 
say, are there recidivism rates? How long have you been in 
existence? So that we know how the program works and indeed 
whether it works.
    Ms. Dallas. First of all, we are a 501-C(3) organization, 
and like most nonprofits we scramble for our money. We have 
some foundation funds. We have some Department of Mental Health 
alternative pathway funds. We have some funds from the Mayor's 
Office of Public Safety. And pretty much I've been with the 
Youth Court for about 2\1/2\ years. I think in the past they've 
had some DOJ money. We're trying to get some DOJ money right 
now.
    But for me, just to speak very briefly about this, I think 
this program is so important that I wish that it could be a 
line item in somebody's budget because it is a preventative--I 
see it very much as a preventative intervention piece that we 
need to buildup and work with as they come in so that we can 
get them looking at their lives, their decisionmaking process 
and all of that.
    Our success rates. Our success rates, recidivism, we've 
been tracking recidivism for the last year, and we're finding 
that 6 months out of Youth Court, the recidivism is around 11 
percent. And then when they get to about a year of not being in 
Youth Court, it sort of jumps up to about 17 percent, which I'm 
told that, based on the study that was done, is still a better 
recidivism rate than--I think it was 30 percent that was quoted 
for kids that were going right into the juvenile justice 
system. But what we're finding is that--because parents were 
saying can you keep them in Youth Court because it gives them 
something to do? Our group of kids don't have a lot of things 
to do, so we're finding if we can keep them preoccupied and 
involved in things, that reduces that chance of recidivism.
    The other thing that we do basically, these are kids that 
when you mentioned about reading, you know, some of them come, 
they can't read. They now get a leadership roll in that they're 
able to be a jury foreperson. You know, we encourage them 
around a lot of different things in Youth Court. So we see some 
good successes, especially anecdotally, about kids who we see 
the self-esteem turned around and starting to feel like they're 
worthy and they are worth something and they want to go on to 
something different.
    Ms. Norton. Thank you very much. I see that we have learned 
the lesson of early intervention. We may not have learned the 
lesson of follow-through so that the students feel supported 
once they go forward.
    Thank you very much, Ms. Dallas.
    Chairman Tom Davis. I want to thank all of you very much. 
This is very helpful to us as we continue our deliberations and 
try to work with the appropriate bodies in the District to 
improve the system. But all of you are making a difference, and 
we appreciate it. The hearing is adjourned.
    [Whereupon, at 1:05 p.m., the committee was adjourned.]
    [Note.--The District of Columbia Public Schools May 2005 
Strategic Plan entitled, ``Declaration of Education: Keeping 
Our Promise to the District's Children,'' and additional 
information submitted for the hearing record may be found in 
committee files.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T1591.090

[GRAPHIC] [TIFF OMITTED] T1591.091

[GRAPHIC] [TIFF OMITTED] T1591.092

[GRAPHIC] [TIFF OMITTED] T1591.093

[GRAPHIC] [TIFF OMITTED] T1591.094

[GRAPHIC] [TIFF OMITTED] T1591.095

[GRAPHIC] [TIFF OMITTED] T1591.096

[GRAPHIC] [TIFF OMITTED] T1591.097

[GRAPHIC] [TIFF OMITTED] T1591.098

[GRAPHIC] [TIFF OMITTED] T1591.099

[GRAPHIC] [TIFF OMITTED] T1591.100

[GRAPHIC] [TIFF OMITTED] T1591.101

[GRAPHIC] [TIFF OMITTED] T1591.102

[GRAPHIC] [TIFF OMITTED] T1591.103

[GRAPHIC] [TIFF OMITTED] T1591.104

[GRAPHIC] [TIFF OMITTED] T1591.105

[GRAPHIC] [TIFF OMITTED] T1591.106

[GRAPHIC] [TIFF OMITTED] T1591.107

[GRAPHIC] [TIFF OMITTED] T1591.108

[GRAPHIC] [TIFF OMITTED] T1591.109

[GRAPHIC] [TIFF OMITTED] T1591.110

[GRAPHIC] [TIFF OMITTED] T1591.111

[GRAPHIC] [TIFF OMITTED] T1591.112

[GRAPHIC] [TIFF OMITTED] T1591.113

[GRAPHIC] [TIFF OMITTED] T1591.114

[GRAPHIC] [TIFF OMITTED] T1591.115

[GRAPHIC] [TIFF OMITTED] T1591.116

[GRAPHIC] [TIFF OMITTED] T1591.117

[GRAPHIC] [TIFF OMITTED] T1591.118

[GRAPHIC] [TIFF OMITTED] T1591.119

[GRAPHIC] [TIFF OMITTED] T1591.120

[GRAPHIC] [TIFF OMITTED] T1591.121

[GRAPHIC] [TIFF OMITTED] T1591.122

[GRAPHIC] [TIFF OMITTED] T1591.123

[GRAPHIC] [TIFF OMITTED] T1591.124

[GRAPHIC] [TIFF OMITTED] T1591.125

[GRAPHIC] [TIFF OMITTED] T1591.126

[GRAPHIC] [TIFF OMITTED] T1591.127

[GRAPHIC] [TIFF OMITTED] T1591.128

                                 <all>

</pre></body></html>
